APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
————
No. 20-1642
————
RODERICK V. LEWIS,
v.

Petitioner-Appellant,

DENNIS REAGLE, Warden,
Pendleton Correctional Facility,
Respondent-Appellee.
————
May 11, 2021
————
Appeal from the United States District Court
for the Southern District of Indiana,
Indianapolis Division.
No. 1:19-cv-01515-RLY-MPB
RICHARD L. YOUNG, Judge.
————
ORDER
Before
DIANE S. SYKES, Circuit Judge
DIANE P. WOOD, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
Respondent-appellee filed a petition for rehearing
and rehearing en banc on April 26, 2021. No judge
in regular active service has requested a vote on the

2a
petition for rehearing en banc, and all members of
the original panel have voted to deny panel rehearing. The petition for rehearing en banc is therefore
DENIED.

3a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 20-1642
————
RODERICK V. LEWIS,
v.

Petitioner-Appellant,

DUSHAN ZATECKY,
Respondent-Appellee.
————
Appeal from the United States District Court
for the Southern District of Indiana,
Indianapolis Division.
No. 1:19-cv-01515-RLY-MPB
RICHARD L. YOUNG, Judge.
————
Argued September 30, 2020 –
Decided April 13, 2021
————
Before SYKES, Chief Judge, and WOOD and BRENNAN,
Circuit Judges.
WOOD, Circuit Judge. When has a client charged
with a serious crime received not merely inadequate
assistance of counsel, but a failure of representation so
serious that “counsel has entirely failed to function as
the client’s advocate”? Florida v. Nixon, 543 U.S. 175,
189 (2004). This is the situation the Supreme Court
first addressed in United States v. Cronic, 466 U.S.

4a
648 (1984). Although such a total breakdown is rare,
the Court has never wavered from the recognition
that it can occur. In such cases, unlike those presenting more conventional ineffective-assistance claims,
the defendant does not need to make an independent
showing of prejudice. See Strickland v. Washington,
466 U.S. 668 (1984). The failing is so profound that
prejudice is inherent in the situation.
In the case before us, Roderick Lewis argues that
his is one of the extraordinary cases to which the
Cronic rule applies. Standing convicted of felony murder, he received literally no assistance from his lawyer during the sentencing stage of the trial. After proceedings in the state courts, which we detail below, he
turned to federal court and filed a petition for a writ
of habeas corpus under 28 U.S.C. § 2254. The district
court denied relief, but it issued a certificate of appealability to Lewis. We conclude that the decision of the
last responsible state court was contrary to Supreme
Court precedent, insofar as it held that Strickland,
not Cronic, furnished the applicable rule, and it was
an unreasonable application of Cronic, insofar as it
focused on that case.1 We thus reverse and remand for
issuance of the writ, limited to sentencing.
1

In order to be fair to the state court, we consider its decision
under each of the two distinct branches of section 2254(d)(1), as
courts commonly do. See, e.g., Aki‐Khuam v. Davis, 339 F.3d 521,
529 (7th Cir. 2003) (“. . . it is clear that the state trial court proceedings, and the state supreme court review thereof, resulted in
a decision contrary to, and involving an unreasonable application
of, federal law as determined by the United States Supreme
Court[.]”); Bailey v. Rae, 339 F.3d 1107, 1118–19 (9th Cir. 2003)
(state court’s application of a standard “is ‘contrary to’ clear
Supreme Court precedent[] [and] [t]he state court’s denial of the
Brady claim was also objectively ‘unreasonable’[.]”); Pazden v.
Maurer, 424 F.3d 303, 306 (3d Cir. 2005) (the state court’s deter-

5a
I
A
We take our account of the underlying facts from
the second opinion of the Court of Appeals of Indiana,
the last state court to consider this case. See Lewis v.
State (Lewis II), 116 N.E.3d 1144 (Ind. Ct. App. 2018).
That court in turn relied on the facts it had reported
on direct appeal, see Lewis v. State (Lewis I), 973
N.E.2d 110 (Table), (Ind. Ct. App. 2012), but we can
largely disregard that detail.
The case involved a toxic mixture: drugs, robbery
plans, guns, and immaturity. Richard Rogers, then 16
years old, ran a drug house in Fort Wayne, Indiana,
with Sidney Wilson, 14 years old. On June 29, 1999,
Rogers invited Christopher Hale to visit the drug
house, but Hale declined because of tensions with
Wilson. Later that evening, Hale, petitioner Roderick
Lewis, and Kajuanta Mays came up with a plan to
mination “was both contrary to, and an unreasonable application
of, clearly established law as proclaimed by the Supreme Court.”);
Fratta v. Quarterman, 536 F.3d 485, 502–03 (5th Cir. 2008) (“The
district court was thus correct in determining that the CCA’s decision was contrary to, and involved an unreasonable application
of, clearly established federal law.”); Breakiron v. Horn, 642 F.3d
126, 139 (3d Cir. 2011) (the state court’s ruling “is both contrary
to and an unreasonable application of Strickland.”); Dennis v.
Sec’y, Pennsylvania Dep’t of Corr., 834 F.3d 263, 285 (3d Cir.
2016) (“We conclude . . . that the [state court]’s decision . . . rested
on . . . unreasonable applications of clearly established law, or
were contrary to United States Supreme Court precedent.”);
Rivera v. Thompson, 879 F.3d 7, 16–17 (1st Cir. 2018) (“[W]e
conclude that . . . the [state court]’s holding was contrary to
governing Supreme Court law[.] . . . Thus, the [state court]’s
conclusion ‘involved an unreasonable application of[] clearly
established Federal law, as determined by the Supreme Court of
the United States.’”).

6a
rob Rogers and Wilson of both drugs and money. They
first confirmed that Rogers and Wilson were alone by
sending Angela Lawson to the house to buy drugs.
Hale then showed up, followed by Lewis and Mays.
The group smoked and drank together. Two of them
were armed: Lewis had a .38 special revolver, and
Hale had a 9 mm firearm.
At one point Hale went upstairs. When he returned,
he said “die bitch” and shot Wilson five times, killing
him. Rogers and Lewis then each reached for a shotgun. Hale told Lewis to kill Rogers, but Lewis refused,
instead handing his revolver to Mays and saying, “if
you want it . . . you do it.” Mays did not hesitate:
he shot Rogers multiple times, fatally. Lewis, Hale,
and Mays then collected the drugs and money and fled.
They wound up in a hotel where they laughed and
partied through the night. Later, Lewis had his uncle
bury the murder weapon.
For the next few years, the crime remained unsolved
and Lewis traveled around the country, living in
Arizona and Indiana. Ultimately, however, investigators in Fort Wayne identified him as a suspect in the
1999 murders. They found him in a prison in May 2009
and interviewed him; on February 25, 2011, the State
of Indiana charged him with two counts of felony
murder and two counts of robbery. He was arrested on
June 27, 2011.
B
At trial, Lewis was represented by Attorney Jeffrey
Raff. Raff tried to get Lewis seriously to consider some
plea offers, but Lewis was uninterested, perhaps
because he did not understand the concept of felony
murder and thought that, because he did not shoot
either Wilson or Rogers, he was not guilty. If that was

7a
his impression, he was mistaken. The jury found
Lewis guilty as charged.
The problems that bring Lewis before us today arose
at the sentencing phase. Here is how the Indiana
Court of Appeals described Raff’s assistance to Lewis
at that critical point:
“Judge I’m going to defer to Mr. Lewis if he
has any comments. I don’t have anything
to add.” Sentencing Transcript at 23–24. This
is the sum total of trial counsel’s participation
at Lewis’s sentencing hearing, at which Lewis
was being sentenced for two counts of felony
murder and faced a maximum sentence of 130
years in prison. The trial court found no mitigating circumstances—none being asserted
by the defense—and sentenced Lewis to the
maximum aggregate sentence of 130 years in
prison.
Lewis II, ¶ 1. Represented by new counsel, Lewis took
a direct appeal, but it was unsuccessful. See Lewis I.
Acting pro se, Lewis then filed a post-conviction
petition in the state court in 2013. Post-conviction
counsel amended that petition in October 2016, and
the court held an evidentiary hearing on July 7, 2017.
Lewis called Attorney Raff, among others, to testify at that hearing. The state conceded that Raff
“basically did not do any advocacy at the sentencing
hearing” but argued that he could not have made a
difference anyway. Raff himself testified about his
normal procedures for preparing for a sentencing
hearing. He also described quite a few things that he
did not do:
He made no inquiries about Petitioner’s
mental health history, and was not aware

8a
that Petitioner had attempted suicide at the
Allen County Jail . . . . He did not ask Petitioner about his upbringing or his family
members, did not speak to his relatives
or friends, and did not have him examined
by a mental health professional. He did not
prepare Petitioner to make a statement at
sentencing, and explained that Petitioner did
not take his advice well.
Lewis II, ¶ 16, quoting from the post-conviction court’s
findings of fact. Essentially Raff thought that Lewis
was a hopeless cause, and so there was nothing useful
Raff could do. Other witnesses at the post-conviction
hearing spoke about evidence that might have had
an impact at sentencing, including a psychologist
who diagnosed Lewis with bipolar II disorder and
discussed his associated substance-abuse problem,
physical abuse by his mother’s boyfriends, mental
disorders in other family members, and his attempted
suicide. None of this, it bears repeating, was brought
out during the sentencing stage of the trial.
On state post-conviction review, the state appellate
court “agree[d] with Lewis that trial counsel’s
performance at sentencing was clearly deficient.”
Lewis II, ¶¶ 4, 20. Nevertheless, the court held that
“our review leaves us with the firm conviction that
Lewis was not prejudiced by counsel’s deficient performance.” Id. ¶ 20. It reviewed the following potential
mitigating circumstances: Lewis’s role as an accomplice; his age; his difficult childhood; and his mental
health. None of these could have supported a finding
of prejudice, in the court’s view, nor was it troubled by
his consecutive sentences.
Finally, the court turned to the issue that has
survived to reach us: whether the proper standard

9a
for assessing Lewis’s case comes from Cronic, as Lewis
argues, or Strickland. If it is Strickland, then Lewis’s
case is over: we cannot say that the Indiana Court of
Appeals was unreasonable when it found that Lewis
had not been prejudiced by his attorney’s substandard
performance. (We add that we are not necessarily
saying that we would have resolved the prejudice
issue the same way. We mean only that we are satisfied that the state court acted within the generous
boundaries delineated for it by 28 U.S.C. § 2254(d)(1).)
If Cronic applies, however, then matters are quite
different, because prejudice need not be shown. But
the state court found that Lewis’s case did not fit
within the Cronic framework. Lewis II, ¶ 39. Its finding of no prejudice for Strickland purposes required it
to affirm the trial court’s denial of post-conviction
relief.
After exhausting his state-court remedies, Lewis
filed a petition under 28 U.S.C. § 2254 in the federal
court. The district court acknowledged that in Miller
v. Martin, 481 F.3d 468 (7th Cir. 2007), this court
had found that the Indiana court had unreasonably
failed to apply Cronic to an attorney’s performance at
sentencing, and thus that petitioner Miller was entitled to the issuance of a writ of habeas corpus. Id. at
470. But, the court thought, Miller had been undermined by two decisions of the U.S. Supreme Court:
Wright v. Van Patten, 552 U.S. 120 (2008), and Woods
v. Donald, 575 U.S. 312 (2015). It characterized what
happened in Lewis’s case as counsel’s complete failure
to subject the prosecution’s case to adversarial testing, and it then concluded that no Supreme Court
decision squarely addressed that situation. It thus
concluded that the criteria for the issuance of a writ
were not met. But the court also recognized that
“[r]easonable jurists could disagree about whether

10a
Cronic clearly establishes an exception to Strickland’s
prejudice requirement” on these facts, and so it issued
a certificate of appealability to Lewis limited to this
issue.
II
We begin with a review of the Supreme Court’s
Cronic decision and how it fits within the broader
context of ineffective-assistance-of-counsel cases. For
purposes of section 2254(d), the only relevant law is
that which is “clearly established Federal law, as determined by the Supreme Court of the United States[.]”
28 U.S.C. § 2254(d)(1). Our own decisions, as well as
those of other circuits or state courts, are informative
only insofar as they may shed light on our understanding of the authoritative Supreme Court precedents.
1. Cronic
The underlying facts of Cronic involved a common
check-kiting scheme, in which defendant Cronic and
his co-defendants relayed checks back and forth
between two bank accounts (one in Tampa, Florida,
and the other in Norman, Oklahoma) in order to
create falsely inflated balances in each one. They ran
almost $4.8 million through the Tampa bank and $4.6
million through the Norman bank. They ultimately
were caught and indicted on federal mail-fraud
charges.
Cronic was initially represented by one lawyer, but
shortly before trial, that lawyer withdrew from the
case. In his place, “[t]he court appointed a young lawyer with a real estate practice” to represent Cronic. It
allowed the substitute lawyer only 25 days to prepare
for trial, even though the government had been working for over four and a half years on the case and
“had reviewed thousands of documents.” 466 U.S. at

11a
649. Cronic’s co-defendants agreed to testify for the
government.
Despite these disadvantages, Cronic’s lawyer managed to do a few things. He was able to establish some
points favorable to Cronic on cross-examination. He
did not, however, put on any defense. In the end,
Cronic was convicted on most counts of the indictment and sentenced to 25 years’ imprisonment. His
trial lawyer filed a timely appeal for him, although
two months later Cronic filed a motion asking that a
new lawyer be appointed for the appeal.
The court of appeals obliged him, though it declined
to appoint the lawyer Cronic had requested. It
reversed Cronic’s conviction on the basis of several
factors: the limited time for investigation and preparation, counsel’s lack of experience, the gravity of
the charge, the complexity of possible defenses, and
counsel’s access to witnesses. The Supreme Court
reversed. Id. at 667.
The Court began its analysis by reiterating the
critical role that counsel plays in the criminal justice
system and the consequent need to assure counsel’s
competence:
The right to the effective assistance of counsel
is thus the right of the accused to require the
prosecution’s case to survive the crucible of
meaningful adversarial testing.
Id. at 656. It then reaffirmed the general rule, under
which “[a]bsent some effect of challenged conduct on
the reliability of the trial process, the Sixth Amendment guarantee is generally not implicated.” Id. at
658.

12a
That said, the Court then spelled out some “circumstances that are so likely to prejudice the accused that
the cost of litigating their effect in a particular case is
unjustified.” Id. It singled out the following examples:


The complete absence of counsel at a critical stage of the trial. Id. at 659.



Counsel’s total failure to subject the prosecution’s case to meaningful adversarial
testing. Id.



Other circumstances under which,
“although counsel is available to assist
the accused during trial, the likelihood
that any lawyer, even a fully competent
one, could provide effective assistance is
so small that a presumption of prejudice
is appropriate without inquiry into the
actual conduct of the trial.” Id. at 659–60.

The Court concluded that Cronic had not suffered from
an extreme deprivation along the lines of its examples,
and so he could prevail only if he could identify specific
errors that trial counsel made. Id. at 666. That issue,
the Court held, could be explored on remand.
In the years since it was decided, Cronic has made
few appearances in Supreme Court opinions. The district court identified two of those in its effort to distinguish our decision in Miller, 481 F.3d 468: Wright
v. Van Patten, 552 U.S. 120 (2008), and Woods v.
Donald, 575 U.S. 312 (2015). But neither case offers
help in answering the question we face. Wright v. Van
Patten concerned whether it was clearly established
that a defense counsel’s appearance at a plea hearing
by speakerphone was the equivalent of a complete
denial of counsel. The Court ruled that Cronic did not
go that far. 552 U.S. at 125. Indeed, recent experience

13a
has shown that remote presence is a relatively good
substitute for a great many things. The problem for
Lewis was not, as in Van Patten, that his lawyer’s
assistance was occurring via telephone or Zoom; it is
that his attorney did absolutely nothing for him
regardless of format. The Court similarly declined to
apply Cronic in Woods v. Donald, a situation in which
defense counsel was briefly absent from his client’s
joint criminal trial and missed the beginning of a
government witness’s testimony about codefendants’
actions. 575 U.S. at 317–19. Lewis does not allege that
his attorney was physically absent at any relevant
time. Neither Van Patten nor Woods thus advances the
analysis here.
Cronic is far from a dead letter in the Supreme
Court. To the contrary, as recently as October Term
2018, in Garza v. Idaho, 139 S. Ct. 738 (2019), the
Court reaffirmed Cronic’s holding. Garza was a case
in which an attorney in a criminal case failed to file a
notice of appeal for a defendant, despite the fact that
the defendant asked the attorney to do so. Normally,
under those circumstances prejudice is presumed,
regardless of how likely an appeal would be to change
the result. See Roe v. Flores‐Ortega, 528 U.S. 470, 484
(2000). But Garza had signed two plea agreements in
which he waived his right to appeal. 139 S. Ct. at 742.
Based on those waivers, counsel informed Garza
that he was not going to initiate an appeal. Garza
sought post-conviction relief in Idaho’s state courts,
but they ruled that he needed to show both deficient
performance and prejudice, and that he had not done
so. The Supreme Court reversed.
It began by reiterating that “in certain Sixth
Amendment contexts, . . . prejudice is presumed.” Id.
at 744 (quotations omitted). It elaborated as follows:

14a
For example, no showing of prejudice is necessary if the accused is denied counsel at a
critical stage of his trial, United States v.
Cronic, 466 U.S. 648, 659 (1984), or left
entirely without the assistance of counsel on
appeal, Penson v. Ohio, 488 U.S. 75, 88
(1988). Similarly, prejudice is presumed if
counsel entirely fails to subject the prosecution’s case to meaningful adversarial testing. Cronic, 466 U.S. at 659. And, most relevant here, prejudice is presumed when counsel’s constitutionally deficient performance
deprives a defendant of an appeal that he
otherwise would have taken. Flores-Ortega,
528 U.S. at 484. We hold today that this final
presumption applies even when the defendant has signed an appeal waiver.
139 S. Ct. at 744 (cleaned up). With respect to the
case before it, the Court underscored that appeal
waivers do not inevitably block all further recourse:
some matters might fall outside the scope of a waiver,
the prosecution might forfeit the benefit of a waiver,
or the waiver might be unenforceable on the ground
that it was unknowing or involuntary. Id. at 744–45.
It therefore found that the presumption of prejudice
recognized in Flores-Ortega applied to Garza’s case
and remanded for further proceedings.
Years earlier, the Court had also discussed the
Cronic rule, albeit in the context of a proceeding in
which it found that the rule did not apply. The case
was Nixon, supra, 543 U.S. 175 (2004), a capital case
that came to the Supreme Court after the Florida
Supreme Court resolved the defendant’s state postconviction petition. Before trial, counsel informed his
client, Nixon, that he intended to concede guilt at

15a
the outset of the trial, in the hope that this would
persuade the jury not to recommend death during the
penalty phase. Id. at 178. Nixon did not respond one
way or the other to this statement, and so counsel
followed his planned strategy.
The Florida Supreme Court found that counsel’s
decision effectively to concede guilt without having
Nixon’s express consent to do so amounted to constitutionally ineffective performance, and that such a
concession of guilt triggered the Cronic presumption
of prejudice. Id. at 188–89. The Supreme Court held
that the state court erred in both respects. At least in
a case such as Nixon’s, where counsel fully informed
the client of his proposed trial strategy and the client
raised no objection, counsel was entitled to proceed as
planned. Moreover, in a passage that is relevant to
our case, it found that this was not an occasion for
presumed prejudice:
Cronic recognized a narrow exception to
Strickland’s holding that a defendant who
asserts ineffective assistance of counsel must
demonstrate not only that his attorney’s
performance was deficient, but also that
the deficiency prejudiced the defense. Cronic
instructed that a presumption of prejudice
would be in order in circumstances that are
so likely to prejudice the accused that the
cost of litigating their effect in a particular
case is unjustified. 466 U.S., at 658. The
Court elaborated: “[I]f counsel entirely fails
to subject the prosecution’s case to meaningful adversarial testing, then there has been a
denial of Sixth Amendment rights that makes
the adversary process itself presumptively
unreliable.” Id., at 659; see Bell v. Cone, 535

16a
U.S. 685, 696–697 (2002) (for Cronic’s presumed prejudice standard to apply, counsel’s
failure must be complete). We illustrated just
how infrequently the surrounding circumstances [will] justify a presumption of ineffectiveness in Cronic itself. In that case, we
reversed a Court of Appeals ruling that
ranked as prejudicially inadequate the performance of an inexperienced, underprepared
attorney in a complex mail fraud trial. 466
U.S., at 662, 666.
543 U.S. at 190 (cleaned up). See also Kansas v.
Ventris, 556 U.S. 586, 591 (2009) (citing Cronic for
the proposition that the right to counsel “ensur[es]
that the prosecution’s case is subjected to ‘the crucible
of meaningful adversary testing’”).
Although it is possible, as the Supreme Court itself
did in Cronic and as the district court here did, to
identify particular circumstances in which the Cronic
rule will apply, we must take the Court at its word
when it says that it is simply offering illustrations
of the rule announced by the Court. We have cautioned
before that “[j]udicial opinions must not be confused
with statutes, and general expressions must be read
in light of the subject under consideration.” United
States v. Skoien, 614 F.3d 638, 640 (7th Cir. 2010) (en
banc) (citing Zenith Radio Corp. v. United States, 437
U.S. 443, 462 (1978)). More to the point, the Supreme
Court itself has expressly stated that section 2254(d)(1)
does not demand a clone in prior law. Williams v.
Taylor, 529 U.S. 362, 407–09 (2000). As the Court has
put this point, section 2254(d)(1) does not “require
state and federal courts to wait for some nearly
identical factual pattern before a legal rule must be
applied” nor does it “prohibit a federal court from

17a
finding an application of a principle unreasonable
when it involves a set of facts different from those
of the case in which the principle was announced.”
Panetti v. Quarterman, 551 U.S. 930, 953 (2007)
(cleaned up). Instead, “state courts must reasonably
apply the rules squarely established by [the Supreme
Court]’s holdings to the facts of each case.” White v.
Woodall, 572 U.S. 415, 427 (2014). As applied here,
that means that we must pay heed to Cronic’s core
holding: that a showing of prejudice is not necessary
in “situations in which counsel has entirely failed to
function as the client’s advocate.” Nixon, 543 U.S. at
189. Implicit in this formulation is the need to show
that this extreme failure occurred during a critical
stage of the proceedings. Lewis has done just that.
2. Critical Stage
Before proceeding to apply these principles to
Lewis’s case, we confirm that the Supreme Court has
emphasized for years the “critical nature of sentencing in a criminal case[.]” See Mempa v. Rhay, 389 U.S.
128, 134 (1967). The Court reconfirmed that the Sixth
Amendment right to counsel exists during the sentencing phase in Lafler v. Cooper, 566 U.S. 156 (2012):
The precedents also establish that there
exists a right to counsel during sentencing in
both noncapital, see Glover v. United States,
531 U.S. 198, 203–204 (2001); Mempa v.
Rhay, 389 U.S. 128 (1967), and capital cases,
see Wiggins v. Smith, 539 U.S. 510, 538
(2003). Even though sentencing does not concern the defendant’s guilt or innocence, ineffective assistance of counsel during a sentencing hearing can result in Strickland prejudice
because “any amount of [additional] jail time

18a
has Sixth Amendment significance.” Glover,
supra, at 203.
566 U.S. at 165. This passage relates only to the
question whether the Sixth Amendment applies at
all to proceedings before and after trial; it does not
address the distinction between a Strickland claim
and a Cronic claim; hence, the reference to prejudice
is of no moment.
To the extent a court of appeals decision is relevant,
we think it helpful to explain why our en banc decision in Schmidt v. Foster, 911 F.3d 469 (7th Cir. 2018),
has no bearing on whether the sentencing phase in
Lewis’s case was a “critical phase” for Sixth Amendment purposes. In Schmidt, before defendant Schmidt’s
trial on first-degree intentional homicide charges
began, the trial court had to make a decision about
whether to admit evidence relating to a defense of
adequate provocation. It decided to hold an ex parte,
in camera examination of Schmidt to help it assess
whether he could pursue this defense. Schmidt’s
lawyer was present for that examination, but the
court admonished counsel not to say anything, and
the lawyer complied. The trial court ultimately
decided to disallow the defense; Schmidt was convicted; and after proceedings that need not detain us,
he argued in a petition under section 2254 that he had
suffered a complete deprivation of counsel at a critical
phase and thus was entitled to relief under Cronic.
Bearing in mind the highly deferential approach to
state-court rulings that section 2254(d) requires, the
en banc court rejected Schmidt’s argument. After
canvassing the relevant cases, the court first held that
the Supreme Court had never had the occasion to
consider the unusual circumstances that Schmidt’s
case presented: a deprivation of counsel during a pre‐

19a
trial, in camera, examination that related to the
admissibility of evidence. 911 F.3d at 480. Moreover,
the en banc court viewed the course of events through
a broader lens than Schmidt had urged. That broader
perspective showed that counsel was able to help
Schmidt in several ways with respect to the proposed
evidence: he filed a notice of the provocation defense,
he argued for its application in court hearings, he
briefed the law, he submitted a detailed offer of proof,
and he gave the court a witness list. The fact that
counsel was barred from offering assistance during
the in camera hearing, the court said, did not render
the rest of counsel’s assistance meaningless. Or at
least, the court held, the state courts were entitled to
view the case this way, and that was enough to require
denial of the writ.
In our case, unlike Schmidt, the Supreme Court has
spoken specifically to the question whether the phase
in question—sentencing—is a “critical” one. As we
noted earlier, the answer is an unambiguous yes. And
as we will see below, the other distinction between
Lewis’s case and Schmidt’s is the degree of help that
counsel offered—significant for Schmidt, nonexistent
for Lewis.
III
We do not need to decide for ourselves whether
trial counsel’s performance at sentencing was deficient. We have only to defer to the finding of the
Indiana Court of Appeals in Lewis II, to which we
referred at the outset of this opinion. That court
described counsel’s performance as “clearly deficient,”
and we agree with that assessment. Where we part
company is with Lewis II’s approach to Cronic. The
court began by reviewing the three situations that
Cronic itself had mentioned and that we noted earlier:

20a
(1) a complete denial of counsel at a critical stage of
trial; (2) the entire failure to subject the prosecution’s
case to meaningful adversarial testing; and (3) a situation in which counsel is called upon to render assistance under circumstances where even competent
counsel could not do so. Lewis II, ¶ 38. In the state
court, Lewis stressed the second of those three
considerations, but the court did not confine its
analysis to that situation. Rightly so, we think—as we
noted earlier, judicial opinions are not statutes and
should not be treated in such a rigid way.
But nothing turns on whether we see Cronic as
establishing three exclusive categories, or as stating
a principle and offering three illustrations. In the
end, the state court simply noted (accurately) that the
Cronic exception is a narrow one, rarely applied by the
Supreme Court. Without another word, it then turned
to Strickland, which it read as confining presumed
prejudice in various ways. 466 U.S. at 692–93. It did
not explain why, in the case before it, Lewis had not
suffered exactly the fate the Strickland Court had
mentioned: the actual or constructive absolute denial
of the assistance of counsel (Cronic category one).
Naturally, someone whose lawyer has left him in the
lurch that way will also fail to subject the prosecutor’s
case to meaningful adversarial testing (Cronic category two). In cases such as Lewis’s, there is thus no
operative difference between the first and the second
of Cronic’s examples.
The closest the state court came to supporting its
conclusion that Cronic does not apply to Lewis’s case
is in the following passage:
Moreover, since Cronic was decided in
1984, the U.S. Supreme Court has never
applied the second exception [i.e. lack of

21a
adversarial testing] to relieve a convicted
defendant of the need to prove prejudice, nor
has the Indiana Supreme Court. In Bell [v.
Cone, 535 U.S. 685 (2002)], the Court simply
spoke of “the possibility of presuming prejudice based on an attorney’s failure to test the
prosecutor’s case” where the attorney’s failure is complete. Bell, 535 U.S. at 696–97
(emphasis supplied). Ultimately, the Court
concluded in Bell: “The aspects of counsel’s
performance challenged by respondent—the
failure to adduce mitigating evidence and the
waiver of closing argument—are plainly of
the same ilk as other specific attorney errors
we have held subject to Strickland’s performance and prejudice components.” Id. at 697–
98.
We are not persuaded that Lewis’s claim
falls within one of the limited circumstances
of extreme magnitude that justify a presumption of ineffectiveness under Cronic.
The post-conviction court, therefore, correctly
determined that Lewis was required to
establish prejudice under Strickland.
Lewis II at ¶¶ 42, 43.
Entirely missing from the state court’s brief
discussion is an acknowledgment of the day-and-night
difference between the assistance that Cone received
during the sentencing phase of his case and that which
Lewis got. Cone, in a word, had plenty of help. The
sentencing hearing was a separate part of Cone’s trial.
The state opened by telling the jury that it planned to
prove four aggravating factors that would justify the
death penalty. Defense counsel responded in his own
opening statement by calling to the jury’s attention

22a
“the mitigating evidence already before them”, and
by suggesting that Cone “was under the influence of
extreme mental disturbance or duress, that he was an
addict whose drug and other problems stemmed from
the stress of his military service, and that he felt
remorse.” 535 U.S. at 691. Counsel also urged the jury
to be merciful. Already, we note, Cone received far
more than Lewis did. But that was just the start for
Cone—there was much more. His lawyer crossexamined the state’s witnesses and objected to the
introduction of gory photographs. He chose to waive
final argument because this prevented the state from
arguing in rebuttal. It is hardly a surprise that the
Supreme Court did not regard Cone’s lawyer’s
performance as either the equivalent of a total lack of
counsel, or the “entire” failure to subject the prosecutions’ case to meaningful adversarial testing. It was
neither.
Let’s take another look at Attorney Raff’s “assistance” during the entire sentencing phase. In essence,
it was nothing but a statement that he was bowing
out. He uttered two short sentences: “Judge, I’m going
to defer to Mr. Lewis if he has any comments. I don’t
have anything to add.” This went beyond a failure to
conduct adversarial testing; it was an announcement
of abandonment. The state suggests that Raff did have
a strategy, and that was to allow Lewis to speak for
himself in the hope that he might express remorse.
This has the flaw of having no support in the record.
Raff never communicated any such strategy to Lewis,
and so Lewis had no guidance from counsel about
what he might do with his allocution when he had the
chance to speak. This theory also conflicts with Raff’s
testimony at the post-conviction hearing. He never
said that he was trying to guide Lewis in this way.
Instead, he said that he thought that there were no

23a
mitigating factors in Lewis’s case. Actually, he had no
idea one way or the other, because he never asked
Lewis about his mental-health history and he never
requested Lewis’s medical records. He did not try
to prepare Lewis for the hearing because he found
Lewis “difficult” and “angry.” It is of no moment that
four jurists (whom we presume were acting in good
faith) disagreed with Cronic’s application. The question is an objective one and does not rest “on the simple
fact that at least one of the Nation’s jurists has applied
the relevant federal law in the same manner the state
court did . . . .” Williams, 529 U.S. at 409–10.
Contrary to the dissent’s assertions, our opinion in
no way conflicts with the holdings in Woods v. Donald,
Cone, or Nixon. None of these cases involved the total
absence of counsel (or its functional equivalent) at a
critical stage. That is what we have here. By contrast,
in Woods counsel was briefly absent during the testimony of a co-defendant. As discussed earlier, counsel
in Nixon fully informed his client of his proposed
strategy, and counsel in Cone subjected the prosecution’s case to adversarial testing. Today’s outcome
faithfully follows Cronic, because we are faced with
the extraordinary situation of a lawyer’s total abandonment of his client at the critical sentencing state.
IV
If Raff was going to fall back to a plea for mercy, or
an effort to convince Lewis to demonstrate remorse,
he had to take some step in that direction. He did not.
Instead, he gave up on Lewis and left him entirely
without the assistance of counsel at the sentencing
stage of a felony murder case. Rare though Cronic
cases may be, we think that this one qualifies.

24a
We therefore REVERSE the judgment of the district
court and REMAND this case for the issuance of a writ
of habeas corpus, limited to the sentencing phase of
petitioner Roderick Lewis’s case.

25a
BRENNAN, Circuit Judge, dissenting. If this were a
direct appeal, I might join the majority opinion. All
can agree Roderick Lewis’s counsel should have done
more on his behalf at sentencing. Such minimal
involvement occurred at a critical stage in a criminal
case. But Lewis’s appeal comes to us as a collateral
attack on a state court judgment under the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”). In his petition for a writ of habeas corpus, Lewis contends his counsel’s silence at sentencing
requires us to apply the presumption of prejudice
described in United States v. Cronic, 466 U.S. 648
(1984), to an ineffective assistance of counsel claim
otherwise governed by Strickland v. Washington, 466
U.S. 668 (1984). AEDPA requires that we grant
habeas relief to Lewis only when the Supreme Court
has answered the specific question of whether Cronic—
and not Strickland—applies, and the state court has
issued a decision contravening that answer. 28 U.S.C.
§ 2254(d)(1).
No Supreme Court decision holds that silence at
sentencing by defense counsel triggers Cronic’s presumption of prejudice. Three courts have declined
Lewis’s invitation to apply Cronic in this novel
circumstance. Despite the stringent standards of
AEDPA, our court accepts the invitation. This decision avoids AEDPA’s confines and expands Cronic’s
scope, reading it too generally and combining its
exceptions. Review of Lewis’s habeas petition should
end with AEDPA, so I respectfully dissent.
I.

AEDPA Review

AEDPA’s strict standard of review results in great
deference to state courts. The grant of Lewis’s habeas
petition lacks the requisite precision under 28 U.S.C.

26a
§ 2254(d)(1), neglecting the critical importance of
comity to our federal habeas system.
A.

AEDPA’s Strictures

AEDPA deference is more than a judicial guidepost; it is a Congressional mandate. See Woodford v.
Garceau, 538 U.S. 202, 206 (2003). “Section 2254(d)
reflects the view that habeas corpus is a ‘guard against
extreme malfunctions in the state criminal justice
systems,’ not a substitute for ordinary error correction through appeal.” Harrington v. Richter, 562 U.S.
86, 102–03 (2011) (quoting Jackson v. Virginia, 443
U.S. 307, 332 n.5 (1979) (Stevens, J., concurring in
judgment)). By its plain text, AEDPA precludes a
federal court from granting a state prisoner’s habeas
petition unless the state court’s merits adjudication
“resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States[.]” 28 U.S.C. § 2254(d)(1) (emphases
added). “If this standard is difficult to meet, that is
because it was meant to be.” Harrington, 562 U.S. at
102.
Section 2254(d)(1)’s “contrary to” and “unreasonable
application of” clauses have independent meaning.
Bell v. Cone, 535 U.S. 685, 694 (2002); see also
Williams v. Taylor, 529 U.S. 362, 404–05 (2000). A
federal court may grant habeas relief under the “contrary to” clause “if the state court applies a rule
different from the governing law set forth in our cases,
or if it decides a case differently than we have done
on a set of materially indistinguishable facts.” Cone,
535 U.S. at 694. For example, if a state court applies
Strickland when it should apply Cronic, we may issue
the writ as the state court judgment is “contrary to”
Supreme Court precedent. Cf. id. at 698 (rejecting a

27a
petitioner’s claim that Cronic, not Strickland, should
apply and noting “we find no merit in respondent’s
contention that the state court’s adjudication was
contrary to our clearly established law” (emphasis
added)). Under the “unreasonable application of”
clause, a federal court may grant habeas relief “if the
state court correctly identifies the governing legal
principle from our decisions but unreasonably applies
it to the facts of the particular case.” Id. at 694. So if
a state court applies Strickland to the facts of a case
“in an objectively unreasonable manner[,]” we may
issue the writ. Id. at 699.
Under either clause of § 2254(d)(1), a petitioner’s
habeas claim is measured against the last reasoned
state-court decision on the merits. Wilson v. Sellers,
138 S. Ct. 1188, 1192 (2018). To grant relief, that state
court’s decision must be “contrary to” or an “unreasonable application of” Supreme Court precedent, not
our own. Glebe v. Frost, 574 U.S. 21, 24 (2014) (per
curiam) (“[C]ircuit precedent does not constitute
‘clearly established Federal law, as determined by the
Supreme Court.’” (quoting 28 U.S.C. § 2254(d)(1)).
Standing alone, AEDPA exudes deference. But for
ineffective assistance of counsel claims, “[t]he federal
courts as a whole engage in ‘doubly deferential’
review” under AEDPA. Wilborn v. Jones, 964 F.3d
618, 620 (7th Cir. 2020), cert. denied, No. 20-913, 2021
WL 666799 (U.S. Feb. 22, 2021) (quoting Knowles v.
Mirzayance, 556 U.S. 111, 123 (2009)). We layer
deference upon deference in these cases because
federal courts must give “both the state court and
the defense attorney the benefit of the doubt.” Burt v.
Titlow, 571 U.S. 12, 15 (2013). Even without AEDPA,
ineffective assistance of counsel claims remain difficult to prove as “counsel is strongly presumed to have

28a
rendered adequate assistance and made all significant decisions in the exercise of reasonable professional judgment.” Strickland, 466 U.S. at 690. “That
hill is even steeper” for claims governed by AEDPA.
Myers v. Neal, 975 F.3d 611, 620 (7th Cir. 2020). As
the Supreme Court said recently, AEDPA takes on a
“special importance” when a state prisoner asserts
the ineffectiveness of his counsel. Shinn v. Kayer,141
S. Ct. 517, 523 (2020).
B. The Majority Opinion’s Application of AEDPA
The majority opinion holds that the Court of
Appeals of Indiana’s decision in Lewis v. State, 116
N.E.3d 1144 (Ind. Ct. App. 2018) (Lewis II), is both
“contrary to” and an “unreasonable application of”
Supreme Court precedent under § 2254(d)(1). In its
only specific reference to the text of that standard, it
states: “We conclude that the decision of the last
responsible state court was contrary to Supreme
Court precedent, insofar as it held that Strickland, not
Cronic, furnished the applicable rule, and it was an
unreasonable application of Cronic, insofar as it
focused on that case.” Majority Op. at p. 2 (footnote
omitted). But these clauses are distinct, with each
having independent meaning. Cone, 535 U.S. at
695 (“[Section] 2254(d)(1)’s ‘contrary to’ and ‘unreasonable application’ clauses have independent meaning.”). Implicit within an “unreasonable application
of” Supreme Court precedent is that the state court
applied the correct legal rule but did so unreasonably
to the facts at hand. Conversely, if a state court applies
the incorrect rule, its decision is “contrary to” Supreme
Court precedent from the start and we need not reach
the reasonability of its application. For the majority
opinion, Lewis II is worthy of correction under both
clauses.

29a
AEDPA requires more precision. Cone teaches that
if a state court applies Strickland when it should apply
Cronic (or vice versa), that error implicates the
“contrary to” clause of § 2254(d)(1). See Cone, 535
U.S at 698. This is because “[f]or purposes of distinguishing between the rule of Strickland and that of
Cronic, this difference is not of degree but of kind.”
Id. at 697 (footnote omitted). Admittedly, the Supreme
Court has not always followed this procedure when
engaging with Cronic. Compare Wright v. Van Patten,
552 U.S. 120, 126 (2008) (per curiam) (rejecting
Cronic’s application under the “unreasonable application of” clause), with Woods v. Donald, 575 U.S. 312,
317–18 (2015) (per curiam) (rejecting Cronic’s application under both the “contrary to” and “unreasonable
application of” clauses). That may be because, in these
cases, the Supreme Court has denied relief, not granted
it. In other words, whether a state court’s decision
was “contrary to” or an “unreasonable application of”
Supreme Court precedent did not matter. The petitioner’s claim failed either way. When a petitioner’s
claim succeeds, however, and a federal court on habeas
review overrules a state court’s decision, precision is a
must. Otherwise, we disregard AEDPA’s text and do
not respect the independent meaning of each clause.1

1

The majority opinion collects several cases to support consideration of the state court’s decision under both clauses of
§ 2254(d)(1). Maj. Op. at p. 2 n.1. But among the cases cited are
rulings that recognized the independent meaning of each clause,
even if the state court decision at issue in the end violated both.
In Bailey v. Rae, the Ninth Circuit explained the distinct clauses,
and gave independent reasoning under each. 339 F.3d 1107,
1111–12, 1118–19 (9th Cir. 2003). Pazden v. Maurer is much the
same. 424 F.3d 303, 311–12, 319 (3d Cir. 2005), as is Breakiron
v. Horn, 642 F.3d 126, 131, 139 (3d Cir. 2011). To the extent these

30a
To be sure, the “contrary to” clause might be an
easier path for a habeas petitioner than the “unreasonable application of” clause. But see Williams, 529
U.S. at 405 (“The word ‘contrary’ is commonly understood to mean ‘diametrically different,’ ‘opposite in
character or nature,’ or ‘mutually opposed.’” (quoting
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY
495 (1976)). An “unreasonable application” means
more than just error: “The question under AEDPA is
not whether a federal court believes the state court’s
determination was incorrect but whether that determination was unreasonable—a substantially higher
threshold.” Schriro v. Landrigan, 550 U.S. 465, 473
(2007). Or as this court has said, “[w]e must deny the
writ if we can posit arguments or theories that could
have supported the state court’s decision, and if
fairminded jurists could disagree about whether those
arguments or theories are inconsistent with Supreme
Court holdings.” Kidd v. Lemke, 734 F.3d 696, 703 (7th
Cir. 2013). To grant Lewis habeas relief under the
“unreasonable application of” clause, the state court’s
application of Strickland, not Cronic, must be unreasonable; that is how the Supreme Court approached
Cone, and that is how to ensure the independent
meaning of the two clauses. See Cone, 535 U.S. at 698.
Yet even if the state court unreasonably applied
Cronic, the implication of the majority opinion is that
no “fairminded jurist could disagree” that Cronic
should supplant Strickland here. On direct review,
four jurists disagreed with Cronic’s application; two
more did so under AEDPA.2 Although this numerical
cases correctly state the law, they recognize that the two clauses
differ.
2

One judge from the Allen County Superior Court, three
judges from the Court of Appeals of Indiana, one judge from the

31a
disparity does not alone doom Lewis’s appeal, it shows
that under the majority opinion, this would be the
only court that has embraced Cronic, doing so under
both clauses of § 2254(d)(1). If AEDPA is satisfied
here, the clause under which the state court’s decision
is purportedly incorrect should be specified as one or
the other.
Animating AEDPA’s strictness is a faith in comity.
“AEDPA recognizes a foundational principle of our
federal system: State courts are adequate forums for
the vindication of federal rights.” Titlow, 571 U.S. at
19. Indeed, “AEDPA’s requirements reflect a ‘presumption that state courts know and follow the law.’”
Woods, 575 U.S. at 316 (quoting Woodford v. Visciotti,
537 U.S. 19, 24 (2002) (per curiam)). That means
“[w]hen reviewing state criminal convictions on collateral review, federal judges are required to afford state
courts due respect by overturning their decisions
only when there could be no reasonable dispute that
they were wrong.” Woods, 575 U.S. at 316. This is
particularly so when state courts adjudicate ineffective assistance of counsel claims:
Especially where a case involves such a
common claim as ineffective assistance of
counsel under Strickland—a claim state
courts have now adjudicated in countless
criminal cases for nearly 30 years—“there is
no intrinsic reason why the fact that a man
is a federal judge should make him more
competent, or conscientious, or learned . . .
than his neighbor in the state courthouse.”

U.S. District Court for the Northern District of Indiana, and
myself.

32a
Titlow, 571 U.S. at 19 (quoting Stone v. Powell, 428
U.S. 465, 494 n.35 (1976)). AEDPA review is so rigorous for Strickland claims because comity demands it.
See Calderon v. Thompson, 523 U.S. 538, 555–56
(1998) (“Federal habeas review of state convictions
frustrates both the States’ sovereign power to punish
offenders and their good-faith attempts to honor constitutional rights.” (internal quotation marks omitted)).
Comity’s force here is not just in principle, but in
practice. The Indiana state courts have worked on
Lewis’s case for some time and have a significant
interest in this litigation. In 2012, Lewis went to trial
in the Allen County Superior Court for his role in a
crime committed 13 years earlier in 1999. Lewis II, 116
N.E.3d at 1148–50, ¶¶ 6–12. After his conviction and
sentencing, Lewis directly appealed, challenging the
sufficiency of the evidence against him. Lewis v. State,
973 N.E.2d 110, No. 02A03-1201-CR-18, 2012 WL
3777134 (Ind. Ct. App. 2012) (unpublished table
decision) (Lewis I). In 2013, Lewis filed a pro se postconviction petition, and in 2016, post-conviction
counsel amended that petition. Lewis II, 116 N.E.3d at
1150, ¶ 14. In 2017, the Allen County Superior Court
held an evidentiary hearing. Id. In 2018, that court, in
a “lengthy order[,]” denied Lewis relief and, as
relevant in this appeal, also rejected Cronic. Id at
1150–53, ¶¶ 16–17. In the decision at issue here, Lewis
II, the Court of Appeals of Indiana affirmed that denial
of relief later in 2018, id. at 1160, ¶¶ 45–46, with the
Indiana Supreme Court ultimately denying leave to
transfer in 2019. Lewis v. State, 124 N.E.3d 41 (Ind.
2019) (unpublished table decision). This procedural
history shows that Lewis’s case has received thorough
consideration by various Indiana courts, not to mention the district court here. AEDPA makes clear “that
state courts are the principal forum for asserting

33a
constitutional challenges to
Harrington, 562 U.S. at 103.

state

convictions.”

All of this is true even before accounting for the
“special importance” of AEDPA to ineffective assistance of counsel claims adjudicated by state courts.
Shinn, 141 S. Ct. at 523. Absent from the majority
opinion’s treatment of Lewis’s claim is recognition of
the “doubly deferential” nature of the review this court
must conduct. Mirzayance, 556 U.S. at 123. Because
“state courts know and follow the law[,]” Woods, 575
U.S. at 316 (internal quotation marks omitted), they
understand that the scope of Cronic has been
significantly curtailed; indeed, that is why they
declined to apply it here. Lewis II, 116 N.E.3d at 1159,
¶ 43 (“We are not persuaded that Lewis’s claim falls
within one of the limited circumstances of extreme
magnitude that justify a presumption of ineffectiveness under Cronic.” (footnote omitted)). All told, the
type of claim the petitioner makes requires him to
overcome AEDPA, surpass Strickland, and trigger
Cronic. That is quite the gauntlet. In fact, it is one
of the most doctrinally difficult challenges a state
prisoner can make in this area of law. AEDPA’s text,
along with its directive of deference, instructs that we
must give independent meaning to each clause of
§ 2254(d)(1).
II.

The Narrow Scope of Cronic

The Supreme Court and this court narrowly construe and rarely apply Cronic. The majority opinion
expands Cronic’s scope and unsoundly combines its
first and second exceptions.
A. Cronic Defined
Cronic is a hard-to-meet exception to the already
hard-to-meet standard of Strickland. Under Strickland,

34a
an ineffective assistance of counsel claim requires a
showing that the attorney’s performance was not
only deficient, but also prejudicial. 466 U.S. at 687.
Deficiency occurs when “counsel made errors so
serious that counsel was not functioning as the
‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. Proving prejudice requires that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would have been different.” Id. at 694. Strickland
sets a high bar, which makes Cronic’s presumption of
prejudice an appealing option for litigants. Cf. Padilla
v. Kentucky, 559 U.S. 356, 371 (2010) (“Surmounting
Strickland’s high bar is never an easy task.”).
With Cronic’s strength, though, comes its rarity.
See, e.g., Florida v. Nixon, 543 U.S. 175, 190 (2004).
Under Cronic, courts may presume prejudice only
when there are “circumstances that are so likely to
prejudice the accused that the cost of litigating their
effect in a particular case is unjustified.” 466 U.S. at
658 (footnote omitted). But even Cronic itself did not
result in this presumption of prejudice. Id. at 666.
Instead, the Supreme Court in Cronic pronounced
three exceptions to Strickland that permit the
presumption of prejudice:
1. When there has been a “complete denial
of counsel[,]” because “a trial is unfair if the
accused is denied counsel at a critical stage of
his trial.”;
2. “[I]f counsel entirely fails to subject the
prosecution’s case to meaningful adversarial
testing, then there has been a denial of Sixth
Amendment rights that makes the adversary
process itself presumptively unreliable.”; and

35a
3. “[W]hen although counsel is available to
assist the accused during trial, the likelihood
that any lawyer, even a fully competent one,
could provide effective assistance is so small
that a presumption of prejudice is appropriate without inquiry into the actual conduct
of the trial.”
466 U.S. at 659–60 (footnote omitted). When a
defendant’s case presents one of these three circumstances, Cronic is triggered, prejudice is presumed,
and Strickland’s second prong is satisfied.
Cronic’s narrowness derives not just from its
result, but from its reasoning. Whether called “illustrations,” “examples,” “circumstances,” “scenarios,” or
“situations,” what matters is that each operates as
an exception to the onerous Strickland standard, and
that there are three—and only three—of them. See,
e.g., Cone, 535 U.S. at 695 (identifying “three situations implicating the right to counsel that involved
circumstances ‘so likely to prejudice the accused that
the cost of litigating their effect in a particular case
is unjustified’” (quoting Cronic, 466 U.S. at 658));
Reynolds v. Hepp, 902 F.3d 699, 705 (7th Cir. 2018)
(same). That Cronic is triggered in only three ways
reflects the narrowness with which its presumption
should be applied.
Recently, this court endorsed this understanding of
Cronic in Schmidt v. Foster, an en banc decision
declining under AEDPA to presume prejudice when a
trial judge conducted an ex parte, in camera examination without defense counsel’s active participation.
911 F.3d 469, 478 (7th Cir. 2018) (en banc). This court
began its analysis in Schmidt by noting that Cronic
and its progeny “come with two caveats.” Id. at 479.
First, Cronic’s presumption of prejudice is “narrow”

36a
and “arises only when the denial of counsel is extreme
enough to render the prosecution presumptively
unreliable.” Schmidt, 911 F.3d at 479. And second,
because the Supreme Court has spoken only generally about Cronic, “the ‘precise contours’ of these
rights ‘remain unclear.’” Schmidt, 911 F.3d at 479
(quoting Woods, 575 U.S. at 318). That means “[s]tate
courts therefore enjoy broad discretion in their adjudication of them.” Schmidt, 911 F.3d at 479 (footnote
and internal quotation marks omitted). Schmidt recognized the three exceptions of Cronic and rejected
applying the first—“the complete denial of counsel
during a critical stage.” 911 F.3d at 478 & n.2, 480.
Because Schmidt’s counsel had assisted him before,
during a recess, and after the in camera examination,
he did not suffer the “complete” deprivation of counsel
necessary to presume prejudice under Cronic’s first
exception, even though the trial court prevented his
counsel from speaking during the in chambers
hearing. Id. at 480–85.3
Although Schmidt’s outcome may not control, and
these facts differ, this court’s reasoning is instructive.
Bound by AEDPA, this court engaged in a comprehensive examination of Cronic and cases interpreting
it to decide that “[n]o clearly established holding of
the Supreme Court mandate[d]” the presumption of
prejudice for an ex parte, in camera examination
without defense counsel’s active participation. 911
F.3d at 481. In doing so, this court rejected an attempt
to generalize what, under AEDPA, must be specific:
“If we must take several dissimilar decisions and
reduce them to blanket principles in order to arrive at
a general proposition applicable here, the proposition
3

Schmidt assumed that the ex parte, in camera examination
was a “critical stage.” 911 F.3d at 480.

37a
is ‘far too abstract to establish clearly the specific rule’
[petitioner] needs.” Id. at 483–84 (quoting Lopez v.
Smith, 574 U.S. 1, 6 (2014) (per curiam)). Relevant
here, this court also observed that “the Supreme Court
has never addressed a case like [Schmidt’s].” Schmidt,
911 F.3d at 485. So “[w]ithout clearly established
law mandating relief, we [could not] grant it under
AEDPA.” Id.
B. Cronic Applied
The Supreme Court rarely applies Cronic, and when
it does, it reads the decision narrowly. Since Cronic’s
advent nearly 40 years ago, the Supreme Court has
applied it only once to presume prejudice. See Penson
v. Ohio, 488 U.S. 75, 88 (1988) (holding that “the
presumption of prejudice must extend as well to the
denial of counsel on appeal” when the granting of an
attorney’s motion to withdraw had left the petitioner
“entirely without the assistance of counsel on appeal”).
Although the majority opinion is correct that the
Supreme Court recently cited Cronic in Garza v.
Idaho, 139 S. Ct. 738, 744 (2019), the Supreme Court
has not applied Cronic to grant relief since Penson.
This court has followed the Supreme Court’s lead,
reading Cronic narrowly and applying it rarely. See,
e.g., Schmidt, 911 F.3d at 479. Lewis musters only two
cases where this court applied Cronic’s presumption
on habeas review. Miller v. Martin, 481 F.3d 468, 473
(7th Cir. 2007) (post-AEDPA); Patrasso v. Nelson, 121
F.3d 297, 305 (7th Cir. 1997) (pre-AEDPA). Other
circuit courts have taken this same guarded approach.
See, e.g., United States v. Roy, 855 F.3d 1133, 1144
(11th Cir. 2017) (en banc) (“The difficulty of carrying
that ‘very heavy’ burden and the ‘very narrow’ scope
of the Cronic exception are evident from the fact that

38a
the Supreme Court has repeatedly refused to find it
applicable.”).
Exceptions by their nature are narrow, so it is no
surprise that the Supreme Court has limited Cronic to
the three described above. See, e.g., Cone, 535 U.S. at
695. When the Court has not specifically listed the
three exceptions, it has still denied relief. See, e.g.,
Woods, 575 U.S. at 317–18, 319. This court has read
Cronic the same way. See Schmidt, 911 F.3d at 478 &
n.2. Even in Miller, when this court applied Cronic’s
presumption, it did so within the three-exception
framework. Miller, 481 F.3d at 472–73. Patrasso
applied Cronic’s second exception, too. 121 F.3d at
303–05. Neither the Supreme Court nor this court has
adopted the broad reading of Cronic in the majority
opinion. For the majority opinion, “[a]lthough it is
possible, as the Supreme Court itself did in Cronic and
as the district court here did, to identify particular
circumstances in which the Cronic rule will apply, we
must take the Court at its word when it says that it
is simply offering illustrations of the rule announced
by the Court.” Maj. Op. at p. 14. But the Court in Cone
and this court in Schmidt did not read Cronic so
expansively, as we recently acknowledged. Cf. Fayemi
v. Ruskin, 966 F.3d 591, 594 (7th Cir. 2020) (“We have
been told not to extend Cronic on collateral review.”).
If adopted in future cases, this broad conception
of Cronic could swallow Strickland’s prejudice prong.
For example, if Cronic is read this broadly, several
Supreme Court cases should have come out differently. Counsel would have triggered Cronic by conceding guilt in a capital case (Nixon), failing to
affirmatively mount some case for life imprisonment
in a capital case’s penalty phase (Cone), and being
absent during certain trial testimony concerning a

39a
codefendant (Woods). That each request to presume
prejudice in these cases failed should give pause
before applying such an expansive reading of Cronic.
Even where the majority opinion does engage with
the three exceptions, it makes general under Cronic
what must be specific under AEDPA. The majority
opinion combines Cronic’s first and second exceptions.
See Maj. Op. at p. 18 (“In cases such as Lewis’s, there
is thus no operative difference between the first and
the second of Cronic’s examples.”). Rather than
“nothing” turning on whether Cronic established three
exclusive categories, id. at 17, its three exceptions
have independent meaning, like the two clauses of
§ 2254(d)(1). Cf. Cone, 535 U.S. at 685. Schmidt
recognized this three-exception framework and
rejected applying Cronic’s first exception for complete
denial of counsel at a critical stage. Schmidt, 911 F.3d
at 478 & n.2, 480, 485. As we stated there, “only once
in the thirty-plus years since Cronic has the Court
applied the presumption of prejudice it described in
a critical-stage case.” Id. at 479 (citing Penson, 488
U.S. at 88). And in no case since Cronic has the
Supreme Court applied the presumption of prejudice
described in the second exception.4 Yet despite the
strictures of AEDPA, the rarity of Cronic, and the
narrowness with which that case has been applied, the
majority opinion finds Lewis’s claim strong enough to
fit both exceptions.
This court should not backtrack from the understanding of Cronic endorsed in Schmidt. According to
the majority opinion, Schmidt differs in its “critical
stage” and “degree of help that counsel offered.” Maj.
4

No Supreme Court case since Cronic appears to have applied
its third exception, either.

40a
Op. at pp. 15, 17. But Schmidt’s relevance here is in
its mode of analysis. That en banc decision teaches
three lessons about Cronic: it is narrow in its rule, it
gives state courts “broad discretion” in adjudicating
the application of its exceptions, and it has three—and
only three—exceptions. Schmidt, 911 F.3d at 478 & n.2.
These lessons led this court in Schmidt to address
that Cronic-based habeas petition with the requisite
particularity under AEDPA. Generalizing Cronic did
not win the day there and should not do so here. Id. at
483–84 (“If we must take several dissimilar decisions
and reduce them to blanket principles in order to
arrive at a general proposition applicable here, the
proposition is far too abstract to establish clearly the
specific rule [petitioner] needs.” (internal quotation
marks omitted)). As AEDPA required, Schmidt considered whether the Supreme Court had ever addressed
a claim like that raised by the petitioner. It had not,
so this court denied relief. Id. at 485. Because the same
is true here, Schmidt should guide us to reject Lewis’s
habeas petition.
III. Supreme Court Treatment of Cronic and AEDPA
The Supreme Court has never confronted the novel
circumstances presented by Lewis’s claim. That
should be enough to preclude habeas relief under
AEDPA. The majority opinion emphasizes one case—
Cone, where the Supreme Court declined to presume
prejudice—at the expense of the rest of Cronic’s
progeny.
A. What AEDPA Means for Cases Invoking Cronic
Looking through AEDPA’s lens, we may grant
habeas relief only when the Supreme Court has
answered the “specific question” of whether Cronic—

41a
and not Strickland—applies and the state court has
issued a decision “contrary to” this answer. Woods, 575
U.S. at 317 (quoting Lopez, 574 U.S. at 6); 28 U.S.C.
§ 2254(d)(1).
Lewis cannot meet this heavy burden imposed by
AEDPA. A direct appeal would be a lighter lift, as it
would turn on whether his lawyer’s silence at sentencing fell within Cronic. AEDPA, however, constricts our
review and requires that we ask whether the Supreme
Court has held that silence at sentencing triggers the
presumption of prejudice—the “specific question.”
Woods, 575 U.S. at 317 (internal quotation marks
omitted). This difference is dispositive: A tour through
four Supreme Court cases addressing Cronic—Cone,
Nixon, Van Patten, and Woods—demonstrates that the
Supreme Court has never presumed prejudice based
on the type of claim Lewis brings. That is “[a]ll that
matters here[.]” Id. at 319.
Time and again, the Supreme Court has declined to
apply Cronic. In Cone, the Court considered and
rejected an argument that Cronic’s second exception
for lack of meaningful adversarial testing applied
when counsel failed to “mount some case for life
[imprisonment]” in a capital case’s penalty phase.
Cone, 535 U.S. at 696 (internal quotation marks
omitted). In Nixon, the Court, outside the strictures
of AEDPA, again rejected application of Cronic’s
second exception by holding that a concession of guilt
in a capital case “does not rank as a failure to function in any meaningful sense as the Government’s
adversary.” Nixon, 534 U.S. at 190 (quoting Cronic,
466 U.S. at 666 (footnote omitted)).5 In Van Patten, the
5

The standard the majority opinion quotes when invoking
Cronic to grant relief is from Nixon, 543 U.S. at 189. Maj. Op. at

42a
Court denied Cronic’s first exception because its own
precedents “do not clearly hold that counsel’s participation by speakerphone should be treated as a ‘complete denial of counsel,’ on par with total absence.” Van
Patten, 552 U.S. at 125. And in Woods, the Court’s
most recent engagement with Cronic, it avoided presuming prejudice, without mentioning a specific
exception, because it had “never addressed whether
the rule announced in Cronic applies to testimony
regarding codefendants’ actions”—as in whether
counsel’s absence during that testimony triggers the
presumption of prejudice. Woods, 575 U.S. at 317.
The Supreme Court has been reluctant to presume
prejudice under Cronic. We should be as well. Of
course, rare does not mean never. What matters under
AEDPA is that the Court has never answered, let
alone affirmatively, the question of whether silence
at sentencing by defense counsel triggers Cronic. See
Van Patten, 552 U.S. at 126 (“Because our cases give
no clear answer to the question presented, let alone
one in Van Patten’s favor, it cannot be said that the
state court unreasonably applied clearly established
Federal law.” (alterations and internal quotation
marks omitted)). This is so regardless of the clause
under which the majority opinion proceeds. See
Woods, 575 U.S. at 317 (“Because none of our cases
confront the specific question presented by this case,
the state court’s decision could not be contrary to any
holding from this Court.” (internal quotation marks
omitted)). As the Court said in its last engagement
with Cronic under AEDPA, “[a]ll that matters here,
and all that should have mattered to the Sixth Circuit,
is that we have not held that Cronic applies to the
pp. 1, 14. The Court in Nixon declined to presume prejudice under
Cronic. Nixon, 543 U.S. at 190.

43a
circumstances presented in this case. For that reason,
federal habeas relief based upon Cronic is unavailable.” Id. at 319. So it is here for this court.
B. Correctly Applying AEDPA to Cronic in this
Case
Under either clause of § 2254(d)(1), the majority
opinion’s broad reading of Cronic cuts against applying it on these facts. Such expansive treatment of
Cronic comes closer to de novo review, which AEDPA
does not permit.
Lewis II is neither “contrary to” nor an “unreasonable application of” Supreme Court precedent concerning Cronic. To implicate the “contrary to” clause, a
state court decision must apply the wrong legal rule
or deviate from a factually indistinguishable case. See
Cone, 535 U.S. at 694. If the majority opinion proceeds
under that clause, it commits the same errors the
Supreme Court corrected in Woods, 575 U.S. at 317
(noting that the Sixth Circuit’s application of Cronic
was “doubly wrong”). First, as in Woods, the majority
opinion relies upon cases that are only “similar to”
Supreme Court precedent, which means “the state’s
court’s decision is not ‘contrary to’ the holdings in
those cases.” Id. But the Sixth Circuit in Woods at
least had affirmative case law to rely on. None of the
decisions cited in the majority opinion granted relief
under Cronic. Second, the majority opinion “frame[s]
the issue at too high a level of generality.” Woods, 575
U.S. at 318. As discussed, no Supreme Court case
holds that silence at sentencing triggers Cronic’s
presumption of prejudice. Cf., e.g., id. at 317–19; Van
Patten, 552 U.S. at 124–26; Nixon, 543 U.S. at 190-93;
Cone, 535 U.S. at 693–98; but see Penson, 488 U.S. at
88-89. In sum, like the petitioner in Woods, Lewis

44a
cannot show that Lewis II was “contrary to” Supreme
Court precedent.
The fate of Lewis’s claim is the same under the
“unreasonable application of” clause of § 2254(d)(1).
Under that clause, the broader the rule, the more room
state courts have to apply it. Yarborough v. Alvarado,
541 U.S. 652, 664 (2004) (“The more general the rule,
the more leeway courts have in reaching outcomes in
case-by-case determinations.”). For our purposes, the
broader the majority opinion reads Cronic, the more
room Lewis II has to apply it. Cf. Maj. Op. at p. 14.
This means that Lewis II must be “not merely wrong”
or “even clear error.” Woods, 575 U.S. at 316 (quoting
Woodall, 572 U.S. at 419). Rather, it must be so
objectively unreasonable that no “fairminded jurist”
could reach its conclusion. Kidd, 734 F.3d at 703. The
question then remains: Is Lewis II that wrong?
It is not. Given that the Supreme Court almost
never applies Cronic, the Court of Appeals of Indiana’s
similar reticence is reasonable. The majority opinion
faults Lewis II for its scant reasoning, despite the
“broad discretion” conferred to state courts interpreting Cronic. Woods, 575 U.S. at 318 (internal
quotation marks omitted). True, the state appeals
court could have said more.6 But perhaps Lewis II’s
cursory treatment of Cronic shows how obviously it
does not apply. Cf. White v. Woodall, 572 U.S. 415, 427
(2014) (“[R]elief is available under § 2254(d)(1)’s
unreasonable-application clause if, and only if, it is
so obvious that a clearly established rule applies to a
6

Like the Indiana Court of Appeals, I also “note that Attorney
Raff’s lack of advocacy at the sentencing hearing appears to have
been, at least in part, invited by Lewis, who expressed clear
disdain for counsel.” Lewis II, 116 N.E.3d at 1160 n.10, ¶ 43 n.10.

45a
given set of facts that there could be no ‘fairminded
disagreement’ on the question[.]” (quoting Harrington,
562 U.S. at 103) (emphasis added)). The opposite does
not hold true: It is not “so obvious” that Cronic, and
not Strickland, should apply here. White, 572 U.S. at
427.
Under either clause, the majority opinion’s analysis
of Lewis II comes closer to de novo review than the
“doubly deferential” standard mandated under
AEDPA for ineffective assistance of counsel claims.
Mirzayance, 556 U.S. at 123; cf. Harrington, 562 U.S.
at 101 (“Here it is not apparent how the Court of
Appeals’ analysis would have been any different without AEDPA.”). In Lewis II, the Court of Appeals of
Indiana considered, and rejected, Lewis’s assertion of
Cronic’s second exception for lack for meaningful
adversarial testing. 116 N.E.3d at 1159, ¶¶ 42–43
Ostensibly under AEDPA review, the majority opinion
nevertheless crafts a hybrid rule—combining Cronic’s
first and second exceptions—to cover Lewis’s claim.
See Maj. Op. at p. 18. For the majority opinion, Cone
supports this proposition: Lewis’s lawyer did less than
the lawyer in Cone, which means Cronic should apply.
See id. at pp. 18–21. But Cronic’s trigger is not so
general, and Cone’s lesson is not so simple. If Lewis is
to secure relief, he must fit within one of Cronic’s three
exceptions, which Cone itself recognized. Cone, 535
U.S. at 696.
What is more, Cone is not the only benchmark by
which to measure the merits of Lewis’s claim under
Cronic. The majority opinion rejects Van Patten and
Woods because “Lewis does not allege that his attorney was physically absent at any relevant time. Neither Van Patten nor Woods thus advances the analysis here.” Maj. Op. at p. 11. But if only constructive

46a
absence cases were relevant to our analysis, then the
majority opinion would have little, let alone recent,
affirmative support. Herring v. New York, 422 U.S.
853, 864–65 (1975) (presuming prejudice when a
state law barred summation of the evidence); Ferguson
v. Georgia, 365 U.S. 570, 571, 596 (1961) (presuming
prejudice when a state law barred elicitation of client’s
trial testimony); see also Schmidt, 911 F.3d at 481.
Instead, Van Patten and Woods serve as further
examples of the only thing that matters in this appeal:
No Supreme Court case has held that silence at
sentencing by defense counsel triggers Cronic. On that
ground, Lewis’s petition should fail.
IV. Conclusion
Cronic’s scope is narrow, AEDPA review is narrow,
and AEDPA review of a Cronic case is especially narrow. Bound by AEDPA, I would reject Lewis’s habeas
petition because no Supreme Court case has applied
Cronic to the novel circumstances presented by his
claim. I respectfully dissent.

47a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
[Filed: March 20, 2020]
————
No. 1:19-cv-01515-RLY-MPB
————
RODERICK LEWIS,
v.

Petitioner,

DUSHAN ZATECKY,
Respondent.
————
ORDER DENYING PETITION FOR A
WRIT OF HABEAS CORPUS
Petitioner Roderick Lewis filed this petition for a
writ of habeas corpus alleging that his counsel failed
to subject the State’s case to meaningful adversarial
testing at sentencing following his murder convictions
in Indiana state court.
I. Background
Mr. Lewis was convicted of felony murder for the
deaths of 16-year-old Richard Rogers and 14-year-old
Sidney Wilson during a robbery. Lewis v. State, 116
N.E.3d 1144, 1149 (Ind. Ct. App. 2018). Throughout
proceedings, Mr. Lewis butted heads with his counsel
(Jeffrey Raff) because Mr. Lewis believed he was
not guilty of murder if he did not personally fire the
fatal shots. Id.; see also dkt. 7-2 at 29 (trial counsel

48a
testifying that “[Mr. Lewis] was difficult. I remember
him being an angry fellow”).
As the sentencing hearing began, the following
exchange ensued:
MR. RAFF: Judge I know that Mr. Lewis
will have some comments and I know the State
has witnesses or appear to have witnesses. I
will defer my comments possibly until later in
the hearing.
COURT: Do you have witnesses to say
something?
MR. RAFF:
present.

I do not have any witnesses to

Sent. Tr. 4.
The State presented statements from several of the
victim’s family and argued for the statutory maximum: consecutive 65-year sentences. Sent. Tr. 5−23.
When the court again invited trial counsel to argue,
counsel responded, “Judge I’m going to defer to Mr.
Lewis if he has any comments. I don’t have anything
to add.” Sent. Tr. 23−24. Mr. Lewis proceeded to argue
for his innocence and complain about the terms of
plea offers that were made to him. Sent. Tr. 24−30.
The trial court found no mitigating circumstances
and sentenced Mr. Lewis to consecutive 65-year terms.
Sent. Tr. 30−34. Mr. Lewis raised an unrelated claim
on appeal, and the Indiana Court of Appeals affirmed.
Dkt. 5-3.
On post-conviction review, Mr. Lewis argued (among
other things) that counsel failed to subject the State’s
case to meaningful adversarial testing at sentencing.
Following a hearing, the trial court denied relief. Mr.
Lewis raised the same claims on appeal. The Indiana

49a
Court of Appeals accurately summarized counsel’s
performance:
Undoubtedly, Attorney Raff was deficient in
his representation of Lewis at the sentencing
hearing. Lewis faced a maximum sentence of
130 years, essentially a life sentence. Although
present, Attorney Raff did nothing for his
client at sentencing aside from indicate that
Lewis would speak on his own behalf at the
conclusion of the hearing.
Lewis, 116 N.E.3d at 1153; see also dkt. 7-2 at 4 (prosecutor acknowledging at post-conviction hearing that
“Mr. Raff basically did not do any advocacy at the
sentencing hearing”). Despite finding that counsel had
done nothing at sentencing, the Indiana Court of
Appeals applied Strickland v. Washington, 466 U.S.
668 (1984), not United States v. Cronic, 466 U.S. 648,
659 (1984), to Mr. Lewis’s claim. Lewis, 116 N.E.3d at
1158−59. The Indiana Court of Appeals found that Mr.
Lewis suffered no prejudice from counsel’s deficient
performance and therefore affirmed the denial of
post-conviction relief. Lewis, 116 N.E.3d at 1160. The
Indiana Supreme Court denied leave to transfer. Dkt.
5-5 at 6.
Mr. Lewis then filed a 28 U.S.C. § 2254 petition in
this court. Dkt. 1.
II. Applicable Law
A federal court may grant habeas relief to a person
in custody pursuant to the judgment of a state court
only if the petitioner demonstrates that he is in
custody “in violation of the Constitution or laws . . .
of the United States.” 28 U.S.C. § 2254(a). Where
a state court has adjudicated the merits of a peti-

50a
tioner’s claim, a federal court cannot grant habeas
relief unless the state court’s adjudication
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts
in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d). “A state court’s determination
that a claim lacks merit precludes federal habeas
relief so long as fairminded jurists could disagree on
the correctness of the state court’s decision.” Harrington
v. Richter, 562 U.S. 86, 101 (2011). “If this standard is
difficult to meet, that is because it was meant to be.”
Id. at 102.
“The decision federal courts look to is the last reasoned state-court decision to decide the merits of the
case.” Dassey v. Dittmann, 877 F.3d 297, 302 (7th Cir.
2017) (en banc). If the last reasoned state court decision did not adjudicate the merits of a claim, or if the
plaintiff can overcome § 2254(d)’s bar, federal habeas
review of that claim is de novo. Thomas v. Clements,
789 F.3d 760, 766−68 (7th Cir. 2015).
III. Discussion
The Indiana Court of Appeals correctly found that
counsel’s performance at sentencing was deficient, and
Mr. Lewis does not argue Strickland prejudice. Mr.
Lewis’s claim thus hinges on whether Supreme Court
precedent has clearly established a presumption of

51a
prejudice when counsel does not advocate for a defendant at sentencing.
Cronic identified three exceptions to Strickland’s
prejudice requirement: (1) where there has been a
“complete denial of counsel” at “a critical stage of
[defendant’s] trial”; (2) where “counsel entirely fails to
subject the prosecution’s case to meaningful adversarial testing”; and (3) where “although counsel is available,” circumstances are such that there is little
chance that “any lawyer, even a fully competent one,
could provide effective assistance.” Cronic, 466 U.S.
659−60. Mr. Lewis relies on the second exception,
arguing that counsel failed to subject the prosecution’s
case to meaningful adversarial testing at sentencing.
The respondent denies that the Supreme Court
has clearly established such a rule for purposes of
§ 2254(d)(1).
According to the respondent, abandonment only at
sentencing is not enough to trigger Cronic’s presumption; instead, counsel must fail to subject the State’s
case to meaningful adversarial testing at all stages
of a defendant’s proceedings. Respondent points to
Florida v. Nixon, where the Supreme Court held that
no Cronic exception applied where counsel in a capital case conceded the defendant’s guilt and focused
entirely on the sentencing stage of proceedings. 543
U.S. 175, 180−92 (2004).
Mr. Lewis counters with Miller v. Martin, where
the Seventh Circuit held that the Indiana Court of
Appeals should have applied Cronic, not Strickland
to the petitioner’s claim that counsel effectively
abandoned him at sentencing. 481 F.3d 468, 472−73
(7th Cir. 2007). There is no meaningful distinction
between this case and Miller. Ordinarily, that would
end the analysis. See Reiser v. Res. Funding Corp., 380

52a
F.3d 1027, 1029 (7th Cir. 2004) (“In a hierarchical
system, decisions of a superior court are authoritative
on inferior courts. . . . [D]istrict judges must follow
the decisions of this court whether or not they agree.”).
But intervening Supreme Court decisions have undermined Miller in two ways: narrowing the Cronic exceptions and bolstering § 2254(d)(1)’s “clearly established
Federal law” provision.
Indeed, less than one year after Miller, the Supreme
Court decided Wright v. Van Patten, holding that
neither Cronic nor any other Supreme Court precedent clearly established an exception to Strickland
where counsel appeared for the defendant’s change-ofplea hearing by speakerphone. 552 U.S. 120, 126
(2008) (per curiam) (“Because our cases give no clear
answer to the question presented, let alone one in
[the petitioner’s] favor, it cannot be said that the
state court unreasonably applied clearly established
Federal law.” (cleaned up)).
Similarly, in Woods v. Donald, the Supreme Court
held that neither Cronic nor any other Supreme
Court precedent clearly established an exception to
Strickland where counsel was absent from the
petitioner’s joint trial with two co-defendants for 10
minutes of testimony because counsel had announced
about the testimony, “I don’t have a dog in this race.
It does not affect me at all.” 575 U.S. 312, 314, 318−19
(2015). In denying habeas relief, the Supreme Court
emphasized the importance of clearly established
Supreme Court precedent: “All that matters here, and
all that should have mattered to the [court of appeals],
is that we have not held that Cronic applies to
the circumstances presented in this case. For that
reason, federal habeas relief based upon Cronic is
unavailable.” Id. at 319.

53a
Miller does not identify any Supreme Court case
holding that Cronic applies where counsel fails to
subject the prosecution’s case to meaningful adversarial testing at sentencing. 481 F.3d at 472 (“Some
uncertainty exists with regard to the appropriate
standard for evaluating claims of ineffective assistance of counsel when counsel's efforts appear particularly lacking.”). Indeed, Mr. Lewis identifies no such
case either. Miller instead relies on Patrasso v. Nelson,
121 F.3d 297 (7th Cir. 1997), a case applying preAEDPA standards. 481 F.3d at 472; cf. id. at 473
(concluding that Bell v. Cone, 535 U.S. 685 (2002), did
not undermine Patrasso).
Given the Supreme Court’s post-Miller emphasis on
clearly established federal law, and because no
Supreme Court decision has held that Cronic applies
when counsel fails to subject the prosecution’s case to
meaningful adversarial testing at sentencing, the
court “is ‘powerfully convinced’ that the Seventh Circuit would overrule [Miller] at the first opportunity.”
Lewis v. Gaylor, Inc., 914 F. Supp. 2d 925, 927 (S.D.
Ind. 2012) (quoting Colby v. J.C. Penney Co., 811 F.2d
1119, 1123 (7th Cir. 1987)).
And here, because the Indiana Court of Appeals did
not unreasonably apply or issue a decision contrary
to clearly established federal law, Mr. Lewis cannot
overcome 28 U.S.C. § 2254(d)(1)’s limitation on habeas
relief. His petition is therefore denied.
IV. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas
corpus is denied by a federal district court does not
enjoy an absolute right to appeal.” Buck v. Davis, 137
S. Ct. 759, 773 (2017). Instead, the prisoner must first
obtain a certificate of appealability. See 28 U.S.C.

54a
§ 2253(c)(1). Rule 11(a) of the Rules Governing Section
2254 Proceedings in the United States District Courts
requires the district court to “issue or deny a certificate of appealability when it enters a final order
adverse to the applicant.” “A certificate of appealability may issue . . . only if the applicant has made a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2).
Reasonable jurists could disagree about whether
Cronic clearly establishes an exception to Strickland’s
prejudice requirement when counsel fails to subject
the prosecution’s case to meaningful adversarial testing at sentencing. Accordingly, a certificate of appealability shall issue as to Mr. Lewis’s ineffective assistance of counsel claim.
V. Conclusion
Mr. Lewis’s petition for a writ of habeas corpus is
denied, but a certificate of appealability is granted.
IT IS SO ORDERED.
Date:

3/20/2020
/s/ Richard L. Young, Judge
RICHARD L. YOUNG, JUDGE
United States District Court
Southern District of Indiana

Distribution:
Michael K. Ausbrook
mausbrook@gmail.com
Jesse R. Drum
INDIANA ATTORNEY GENERAL
jesse.drum@atg.in.gov

55a
APPENDIX D
IN THE COURT OF APPEALS OF INDIANA
[Filed: December 21, 2018}
————
Court of Appeals Case No. 18A-PC-767
————
RODERICK VANDRELL LEWIS,
Appellant-Defendant,
v.
STATE OF INDIANA,
Appellee-Plaintiff
————
Appeal from the Allen Superior Court
Trial Court Cause No. 02D05-1305-PC-84
The Honorable FRANCES C. GULL, Judge
————
ATTORNEYS FOR APPELLANT
Stephen T. Owens
Public Defender of Indiana
Anne C. Kaiser
Deputy Public Defender
Katherine Province
Deputy Public Defender Indianapolis, Indiana
ATTORNEYS fOR APPELLEE
Curtis T. Hill, Jr.
Attorney General of Indiana
James B. Martin
Deputy Attorney General Indianapolis, Indiana

56a
Case Summary
ALTICE, Judge.
“Judge I’m going to defer to Mr. Lewis if he has
any comments. I don’t have anything to add.” Sentencing Transcript at 23-24. This is the sum total of trial
counsel’s participation at Lewis’s sentencing hearing,
at which Lewis was being sentenced for two counts
of felony murder and faced a maximum sentence of
130 years in prison. The trial court found no mitigating circumstances—none being asserted by the
defense—and sentenced Lewis to the maximum aggregate sentence of 130 years in prison.1
On direct appeal, appellate counsel presented only
a sufficiency challenge, which this court rejected.
Appellate counsel felt constrained by trial counsel’s
failure to argue any mitigating circumstances at sentencing. Had trial counsel made an adequate record
at sentencing, appellate counsel would have challenged the sentence as inappropriate under Ind.
Appellate Rule 7(B). Appellate counsel, however,
chose not to raise this issue to avoid hindering Lewis’s
future pursuit of post-conviction relief based on trial
counsel ineffectiveness.
After this court affirmed his convictions on direct
appeal, Lewis sought post-conviction relief. He challenged the effectiveness of both trial and appellate
counsel related to sentencing. The post-conviction
court denied relief, and Lewis now appeals.
We agree with Lewis that trial counsel’s performance at sentencing was clearly deficient. After a
1

The sentencing range for murder is forty-five to sixty-five
years, with the advisory sentence being fifty-five years. Ind. Code
§ 35-50-2-3(a).

57a
thorough review of the record and applicable case
law, however, we conclude that no prejudice resulted
from the deficient performance. In other words, there
is not a reasonable probability that Lewis’s sentence
would have been different if counsel had proffered the
mitigating circumstances raised at the post-conviction
hearing. Further, with regard to appellate counsel, we
conclude that counsel was not ineffective.
We affirm.
Facts & Procedural History2
The underlying facts supporting Lewis’s convictions
were set out in detail on direct appeal, and we draw
from those. On June 29, 1999, Christopher Hale had a
discussion with sixteen-year-old Richard Rogers, who
operated a drug house in Fort Wayne with fourteenyear-old Sidney Wilson. Rogers invited Hale to visit
the drug house, but Hale declined due to problems he
was having with Wilson. Rogers indicated that he
would talk with Wilson and quash it.
Later that evening, Hale, Lewis, and Kajuanta Mays
agreed on a plan to rob Wilson and Rogers of their
drugs and money. First, they verified that Wilson and
Rogers were alone by sending Angela Lawson to the
house to buy drugs. As planned, Hale then went into
the drug house followed later by Lewis and Mays, so
that it would appear they were all there by happenstance. They all smoked and drank with Wilson and
Rogers inside the house. Lewis was armed with a .38
2

Oral argument was held at the Walker Career Center at
Warren Central High School in Indianapolis on December 4,
2018. We thank the staff for our warm welcome and the students
for their professionalism and attentiveness throughout the argument. We also wish to recognize the exceptional briefing and
argument provided by counsel for Lewis and the State.

58a
special revolver, and Hale, who Lewis described as
a violent person, was armed with a nine-millimeter
firearm.
Hale went upstairs to use the restroom and as he
returned down the stairs, he stated “die bitch” and
shot Wilson five times, including in his chest, abdomen, and back. Trial Transcript at 97. Rogers and
Lewis both reached for a shotgun that was in the room,
and Hale then turned out the lights and ordered
Rogers to sit down. Hale told Lewis to kill Rogers,
which Lewis refused to do. Lewis handed his revolver
to Mays and stated, “if you want it . . . you do it.” Trial
Transcript at 304. Mays proceeded to brutally shoot
Rogers multiple times, including several times in the
head from a distance of six to eighteen inches. Lewis,
Hale, and Mays collected the victims’ drugs and money
and ran to a nearby house, where they split up the
proceeds of the robbery. Mays had taken the shotgun
from the drug house also. Eventually, with Lawson’s
help, they arranged for a ride to a hotel. The men then
hung out in the hotel room with Lawson and sat
around laughing and talking about the shootings. At
some point that night, Lewis engaged in sex or oral sex
with Lawson at the hotel. Later, Lewis had his uncle
bury the revolver that had been used to kill Rogers.
The crime remained unsolved for quite some time,
and Lewis lived in Arizona and Indiana over the next
several years. He continued to be involved in drugs
and crimes as a gang member until at least 2007.
Between 2002 and 2006, Lewis committed five misdemeanors (resisting law enforcement, driving without a license, and disorderly conduct (Indiana 2002);
assault and unlawful imprisonment (Arizona 2005))
and three felonies (possession of cocaine (Indiana
2002), theft (Arizona 2004), and burglary (Arizona

59a
2006)). Lewis violated probation more than once, and
he was released to parole in Arizona in March 2011.
In the meantime, investigators in Fort Wayne eventually identified Lewis as a suspect in the 1999 double
murder. They located him in an out-of-state prison
and interviewed him on May 21, 2009. Lewis gave a
statement detailing his involvement with Hale and
Mays in the robbery turned murder.3
On February 25, 2011, the State charged Lewis
with two counts of felony murder and two counts of
robbery. He was arrested in Indiana on June 27,
2011. Jeffrey Raff, an experienced criminal defense
attorney, represented Lewis throughout the trial proceedings. Lewis rejected plea offers from the State —
contrary to Raff’s recommendations—because Lewis
could not grasp the concept of felony murder and
believed he was not guilty of murdering Wilson and
Rogers because he did not shoot either of them.
The case proceeded to a jury trial on November 2930, 2011. The jury found him guilty as charged. At the
beginning of the sentencing hearing on January 5,
2012, Lewis made clear his dissatisfaction with
Attorney Raff and his lack of desire to consult with
Attorney Raff about sentencing issues. Thereafter,
Attorney Raff presented no witnesses, made no argument on Lewis’s behalf, and made no sentencing
recommendation. He simply allowed Lewis to make
his own statement, which spanned about six pages
of the transcript. The State, on the other hand, presented a number of witnesses, asserted several aggravating circumstances, and asked the court to impose
3

Lewis had previously admitted his involvement in the crime
during an interview with a Fort Wayne Police Detective in 2002,
but no charges were filed at the time.

60a
aggravated, consecutive sentences. At the conclusion
of the sentencing hearing, the trial court imposed
maximum sixty-five-year sentences for the felony
murder convictions and ordered them to be served
consecutively.4 The trial court noted several aggravating circumstances (criminal history, gang membership, and the senseless, horrific nature of the offenses)
and found no mitigating circumstances. In support
of consecutive sentences, the trial court indicated
that there were two victims and that Lewis had an
aggravated criminal record.
Lewis pursued a direct appeal with new counsel,
Stanley Campbell. Attorney Campbell challenged the
sufficiency of the evidence. We affirmed the convictions in a memorandum decision. See Lewis v. State,
No. 02A03-1201-CR-18 (Ind. Ct. App. Aug. 31, 2012),
trans. denied. We noted that all participants in a
robbery that results in killing by one robber are
deemed equally guilty of murder, regardless of which
participant actually killed the victim. Based on the
evidence presented at trial, we determined the “jury
could have reasonably inferred . . . that Lewis
possessed the requisite intent to participate in the
robberies, that he was an accomplice to the robberies
and murders, and that the killings of Rogers and
Wilson were probable and natural consequences of the
actions of Lewis, Hale, and Mays.” Slip op. at 7.
On May 6, 2013, Lewis filed a pro se petition for
post-conviction relief, which was amended by postconviction counsel on October 31, 2016. An evidentiary
hearing was held on July 7, 2017. Lewis argued that
Attorney Raff failed to advocate on Lewis’s behalf at
4

Judgments of conviction were not entered on the robbery
counts.

61a
sentencing, which resulted in Lewis receiving a de
facto life sentence. Lewis argued that there were
several available mitigating circumstances that
should have been asserted at sentencing. Specifically,
Lewis was eighteen when he committed the crimes,
he acted as an accomplice, he has mental health
issues, and he had a difficult upbringing. Additionally,
Lewis claimed that Attorney Campbell was ineffective
for failing to challenge the sentence as inappropriate
on direct appeal.
At the post-conviction hearing, Lewis called Attorney Raff and clinical psychologist Dr. James Cates as
witnesses. He also testified on his own behalf and
introduced several exhibits, including the affidavit of
Attorney Campbell. The State acknowledged that
Attorney Raff “basically did not do any advocacy at
the sentencing hearing” but argued that “what Mr.
Raff could have come up with would have had limited
mitigating value and would probably not have made a
difference in the outcome.” Post-Conviction Transcript
at 4.
The post-conviction court denied relief on March 15,
2018, with a lengthy order. The trial court made the
following findings of fact regarding the evidence
presented at the post-conviction hearing:
8. Attorney Raff did nothing at sentencing,
other than to announce that Petitioner might
speak on his own behalf. Attorney Raff
testified at the post-conviction hearing, in
relevant part, as follows. In preparation for
Petitioner’s sentencing, he would have
reviewed Petitioner’s criminal history, had
personal contact with him, and reviewed the
pre-sentence investigation report. He believed
that no mitigators were available in this case.

62a
He made no inquiries about Petitioner’s
mental health history, and was not aware
that Petitioner had attempted suicide at the
Allen County Jail . . . . He did not ask
Petitioner about his upbringing or his family
members, did not speak to his relatives or
friends, and did not have him examined by a
mental health professional. He did not
prepare Petitioner to make a statement at
sentencing, and explained that Petitioner
did not take his advice well. He would have
asked whether any family members wanted
to speak or write on Petitioner’s behalf. Petitioner had a very poor character and very bad
criminal history. He expected that Petitioner
would receive consecutive sentences, one for
each victim, of at least 55 years each. He
could not identify any mitigators that he
could argue with a straight face. He saw no
indication that Petitioner had mental health
issues, but rather “he just had a pretty extensive history of being a gangster basically.”
Young age could be a mitigator, but Petitioner
was in his late 20s by the time of his sentencing, and “his criminal history negated any
mitigator he might arguably have had
because of his youth at the time of the
offense.” He suspected that a defendant’s
status as an accomplice had no weight
as a mitigator. As to a defendant’s difficult
upbringing, Attorney Raff testified:
I was not of the school of thought
that said that my client was not
well treated when he was five or six,
therefore that explains to some
extent his robbing these people with

63a
a gun. I think there’s got to be some
realistic relationship between the
upbringing and the conduct.
Attorney Raff saw no nexus between any
possible mitigating factor and anything in
Petitioner’s conduct and speech.
9. Attorney Campbell stated by affidavit, in
relevant part, that his ability to challenge
Petitioner’s sentence was hindered by trial
counsel’s (Raff’s) failure to present evidence
and argument in favor of a mitigated sentence; Attorney Campbell would have challenged the sentence as inappropriate under
Indiana Appellate Rule 7(B) if Attorney Raff
had made a record at sentencing regarding
Petitioner’s mental health issues and troubled family background; the sufficiency of
evidence argument was not a strong issue,
and the Appellate Rule 7(B) challenge would
have been a stronger issue, particularly if a
record had been developed at sentencing.
10. Psychologist James A. Cates, Ph.D.,
testified at the post-conviction hearing, in relevant part, as follows. He interviewed
Petitioner in 2016 and administered several
psychological tests . . . . He learned that
Petitioner’s mother was a drug abuser, she
had abusive men in the home, and she was
diagnosed with bipolar disorder; that Petitioner was physically abused by his mother
and her boyfriends; and that his housing
situation was unstable. Dr. Cates diagnosed
Petitioner with “bipolar II disorder” and
noted that he also exhibited antisocial personality traits. Dr. Cates was the first clinician

64a
who formally diagnosed Petitioner with
bipolar disorder . . . . “Bipolar II” is a slightly
less severe degree of bipolar disorder than
“bipolar I,” not involving any reported full
manic episodes. Bipolar disorder is not always
apparent, and indeed people with that disorder “can go through periods where their mood
is absolutely stable.” Dr. Cates believed that,
at the time of the murder, Petitioner was
likely already experiencing distorted logic
and decision-making from bipolar disorder.
The effect of bipolar disorder upon Petitioner’s behavior around the time of the
crime would depend on whether he was in a
depressed phase or a hypomanic/manic phase,
but there were several possibilities:
[Y]ou could potentially see increased
impulsivity, you could see increased
disruption in his thought processes,
his ability to think through the consequences of actions. You could
see . . . auditory/visual hallucinations, you could see delusions, all
those are potential.
Petitioner had had a substance abuse problem, which could have resulted from efforts
at self-medication for bipolar disorder. Consistent with the diagnosis of bipolar disorder,
Petitioner’s medical records from the Arizona
Department of Corrections indicated that
he was prescribed mood-stabilizing drugs. At
the time of the crime, Petitioner’s “maturity
level was probably much younger than his
chronological age would suggest.” Numerous
children who live in traumatized situations

65a
do not evidence a conduct disorder. Up to
the age of 18, around the time of the offense,
Petitioner had displayed no conduct disorder.
During the time when Petitioner was admittedly a gang member, from the ages of 13 to
26, he would have been more likely to derive
his values from the gang, rather than anything in society that might have been opposed
to the gang’s values.
11. Relatives of Petitioner stated by affidavit, in relevant part, that his mother was
addicted to drugs; his father was mostly
absent and did not help to raise him; he had
an unstable home life; he and his mother were
physically abused by the mother’s boyfriends;
at the age of nine, he witnessed one boyfriend
stabbing another; he began using and selling
drugs at an early age; members of his family
suffer from mental illnesses including bipolar
disorder, schizophrenia, depression, and substance abuse disorder; his mother has been
diagnosed with bipolar disorder and is deemed
“seriously mentally ill” by the State of
Arizona; and he tried to commit suicide in his
late teens.
12. Petitioner testified at the post-conviction
hearing, in relevant part, as follows. He and
Attorney Raff never discussed a plan or evidence for sentencing. Attorney Raff never
asked him about his mental health history or
his family and personal background, and did
not discuss having anyone speak on his behalf
at sentencing. He told the probation officer
who prepared his pre-sentence investigation
report (PSI) that he did not have mental

66a
health issues (although he had been diagnosed with bipolar disorder) because he was
nervous and scared. However, if Attorney
Raff had asked him about his mental health,
of course he would have told him about the
previous treatment. Attorney Raff did not
prepare him to speak at sentencing, and he
did not meet with him between the time
he was convicted and the time he was sentenced. He was admitted twice to Parkview
Behavioral Health in 2002, and was first told
that he had bipolar disorder while in the
Arizona Department of Correction in 2004 or
2005. He attempted suicide in the Allen
County Jail in 2002.
Appendix Vol. III at 30-34 (citations to record omitted).
In its conclusions, the post-conviction court addressed
each of the potential mitigating circumstances and
determined that Attorney Raff erred in certain
regards. Regardless, the court concluded that Lewis
was not prejudiced by the alleged deficient performance because “[e]ven if Attorney Raff had done
everything that Petitioner now wishes he had done,
there would have been little or (more likely) no effect
on the sentence.” Id. at 41. The post-conviction court’s
conclusions will be set out more fully below, but it
ultimately concluded, based on lack of prejudice, that
Lewis did not receive ineffective assistance of trial or
appellate counsel. Additionally, the post-conviction
court rejected Lewis’s argument, based on U.S. v.
Cronic, 466 U.S. 648 (1984), that he did not have to
establish prejudice. Lewis now appeals the denial of
his petition for post-conviction relief.

67a
Standard of Review
In a post-conviction proceeding, the petitioner bears
the burden of establishing grounds for relief by a
preponderance of the evidence. Bethea v. State, 983
N.E.2d 1134, 1138 (Ind. 2013). “When appealing the
denial of post-conviction relief, the petitioner stands
in the position of one appealing from a negative judgment.” Id. (quoting Fisher v. State, 810 N.E.2d 674,
679 (Ind. 2004)). In order to prevail, the petitioner
must demonstrate that the evidence as a whole leads
unerringly and unmistakably to a conclusion opposite
that reached by the post-conviction court. Id. Although
we do not defer to a post-conviction court’s legal
conclusions, we will reverse its findings and judgment
only upon a showing of clear error, i.e., “that which
leaves us with a definite and firm conviction that a
mistake has been made.” Id. (quoting Ben–Yisrayl v.
State, 729 N.E.2d 102, 106 (Ind. 2000)).
A petitioner will prevail on a claim of ineffective
assistance of counsel upon a showing that counsel’s
performance fell below an objective standard of reasonableness and that the deficient performance prejudiced the petitioner. Id. To satisfy the first element,
the petitioner must demonstrate deficient performance, which is “representation that fell below an
objective standard of reasonableness, committing
errors so serious that the defendant did not have the
‘counsel’ guaranteed by the Sixth Amendment.” Id.
(quoting McCary v. State, 761 N.E.2d 389, 392 (Ind.
2002)). The second element requires a showing of
prejudice, which is “a reasonable probability that, but
for counsel’s errors, the result of the proceeding would
have been different.” Id. at 1139. “A reasonable probability is one that is sufficient to undermine confidence
in the outcome.” Kubsch v. State, 934 N.E.2d 1138,

68a
1147 (Ind. 2010) (quoting Strickland v. Washington,
466 U.S. 668, 694 (1984)). Because a petitioner must
prove both deficient performance and prejudice to
prevail on a claim of ineffective assistance of counsel,
the failure to prove either element defeats such a
claim. See Young v. State, 746 N.E.2d 920, 927 (Ind.
2001).
Trial Counsel’s Effectiveness
Undoubtedly, Attorney Raff was deficient in his
representation of Lewis at the sentencing hearing.
Lewis faced a maximum sentence of 130 years, essentially a life sentence. Although present, Attorney Raff
did nothing for his client at sentencing aside from
indicate that Lewis would speak on his own behalf at
the conclusion of the hearing. Lewis argues that at a
minimum Attorney Raff should have proffered several
mitigating circumstances and argued against maximum, consecutive sentences.5 See McCarty v. State,
802 N.E.2d 959, 969 (Ind. Ct. App. 2004) (concluding,
in a multiple-felony case, that “[c]ounsel’s failure to
5

In sum, Lewis asserts that “[i]nstead of humanizing Lewis
and presenting evidence of his difficult upbringing, his youth, and
his mental illness and substance addiction, [Attorney] Raff
displayed rancor toward [Lewis].” Appellant’s Brief at 28. Lewis
continues: “[Raff’s] comments during closing argument that his
client was a disgusting and bad person with a disgusting lifestyle,
coupled with his silence at sentencing, betrayed his duty of loyalty to his client and left the jury and sentencing court with a
horrible impression of Lewis.” Id. Moreover, Lewis observes that
it was the trial court’s duty to determine the weight of proffered
mitigating circumstances, making Attorney Raff’s decision to
unilaterally remove available mitigators from consideration
improper. “While Raff had the discretion to weed out weaker
arguments from stronger ones, his silence communicated to the
court that there were no possible mitigators and that his client
deserved the maximum sentence.” Appellant’s Reply Brief at 5.

69a
investigate and present to the court numerous potentially mitigating circumstances constituted deficient
performance”), trans. denied. Although we agree that
trial counsel was deficient, our review leaves us with
the firm conviction that Lewis was not prejudiced by
counsel’s deficient performance. In this regard, we
address each potential mitigating circumstance below.
Role as Accomplice
Lewis contends that his role as an accomplice in the
murders was both relevant and mitigating. Our
Supreme Court has observed:
While an accomplice may be found guilty of
the crime largely executed by his principal, it
does not follow that the same penalty is
appropriate. Justice Frankfurter has written,
“[T]here is no greater inequality than the
equal treatment of unequals.” Dennis v.
United States, 339 U.S. 162, 184, 70 S.Ct. 519,
526, 94 L.Ed. 734, 749 (1949) (dissenting
opinion).
Martinez Chavez v. State, 534 N.E.2d 731, 735 (Ind.
1989); see also Brown v. State, 10 N.E.3d 1, 5 (Ind.
2014) (revising inappropriate sentence from 150 years
to 80 years in part because defendant acted as an
accomplice in murders).
Although Lewis acted as an accomplice, the evidence
establishes that his role in the murders was substantial and that he was actively involved before, during,
and after the horrific murders of a fourteen-year old
and sixteen-year old. Before, Lewis planned the
robbery of two young drug dealers with Hale and
Mays. He took his own gun to the robbery and was
aware that Hale, a person he knew to be violent, was
armed with a gun. During the crime, as Wilson was

70a
being shot, Lewis reached for the shotgun to keep it
away from Rogers. Lewis also handed his own gun to
Mays, who was unarmed, and invited him to shoot
Rogers if he wished. Mays proceeded to shoot Rogers
in the head multiple times from a close distance. After,
Lewis fled with his cohorts, taking the shotgun with
him. The three divided the drugs and money and then
spent the night in a hotel essentially celebrating and
laughing about the evening’s events. Considering the
totality of his involvement, we agree with the trial
court that Lewis’s role as an accomplice was not
deserving of mitigating weight.
Age
The murders were committed shortly after Lewis
turned eighteen years old. He argues that his age,
“while not legally excusing his behavior, was relevant
to contextualize his behavior during and after the
crime occurred.” Appellant’s Brief at 25.
In addressing the appropriateness of a sixteen-yearold defendant’s 150-year sentence in Brown, the
Supreme Court stated:
We take this opportunity to reiterate what the
United States Supreme Court has expressed:
Sentencing considerations for youthful offenders—particularly for juveniles—are not coextensive with those for adults. See Miller v.
Alabama, [567] U.S. [460], [480,] 132 S.Ct.
2455, 2469, 183 L.Ed.2d 407 (2012) (requiring
the sentencing judge to “take into account
how children are different, and how those
differences counsel against irrevocably sentencing them to a lifetime in prison” (footnote
omitted)). Thus, both at initial sentencing
and on appellate review it is necessary to

71a
consider an offender’s youth and its attendant
characteristics.
Brown, 10 N.E.3d at 6-7.
Though not identified as a statutory mitigating
circumstance, it is well established that a defendant’s
youth may be a significant mitigating factor in some
circumstances. See Smith v. State, 872 N.E.2d 169, 178
(Ind. Ct. App. 2007), trans. denied.
Focusing on chronological age is a common
shorthand for measuring culpability, but for
people in their teens and early twenties it is
frequently not the end of the inquiry. There
are both relatively old offenders who seem
clueless and relatively young ones who
appear hardened and purposeful.
Ellis v. State, 736 N.E.2d 731, 736 (Ind. 2000).
The record shows that Lewis was not a clueless
eighteen-year-old. By his own admission, he had been
a gang member for several years before the crime. He
actively planned and participated in the robbery
turned double murder and seemed unaffected by the
horrific results. Further, any diminished culpability
due to his age is overshadowed by his continued
involvement in criminal conduct and gang life for
many years thereafter. Any weight given this
mitigator would be exceedingly minimal under the
circumstances.
Difficult Childhood
With minimal investigation, Lewis argues that
Attorney Raff would have learned of additional mitigating evidence, including his difficult childhood. In
this regard, Lewis presented evidence at the postconviction hearing that he was raised by a drug-

72a
addicted mother who suffers from bipolar disorder
and has been deemed seriously mentally ill by the
State of Arizona. Lewis was physically abused by his
mother’s boyfriends and, at the age of nine, he
witnessed one boyfriend stabbing another. Lewis
began using and selling drugs at an early age and
eventually dropped out of school and took to the
streets.
Our Supreme Court has indicated that “evidence
about the defendant’s background and character is
relevant because of the belief, long held by this society, that defendants who commit criminal acts that
are attributable to a disadvantaged background, or to
emotional and mental problems, may be less culpable
than defendants who have no such excuse.” Coleman
v. State, 741 N.E.2d 697, 700 (Ind. 2000) (quoting
Penry v. Lynaugh, 492 U.S. 302, 319 (1989)). Evidence
of a difficult childhood, however, generally “warrants
little, if any, mitigating weight.” Id.
Mental Health
The final mitigating factor advanced by Lewis at
the post-conviction hearing was his mental illness.
Specifically, Lewis had attempted suicide, was treated
with mood-stabilizing drugs while incarcerated in
Arizona, and has suffered from substance abuse and
bipolar disorder. Dr. Cates opined that, at the time of
the murders, Lewis may have been experiencing distorted logic and decision making, and his maturity
level was likely much younger than his actual age.
Several factors bear on the weight, if any, that
should be given to mental illness at sentencing.
These factors include: (1) the extent of the
defendant’s inability to control his or her
behavior due to the disorder or impairment;

73a
(2) overall limitations on functioning; (3) the
duration of the mental illness; and (4) the
extent of any nexus between the disorder or
impairment and the commission of the crime.
Weeks v. State, 697 N.E.2d 28, 30 (Ind. 1998). Here,
Dr. Cates diagnosed Lewis in 2016 with Bipolar II, a
less-severe form of the disorder. There is no evidence
that Lewis was suffering from this disorder in 1999,
which makes establishing a nexus between the crime
and Lewis’s mental state rather difficult. The extent
to which Lewis would have been unable to control his
behavior due to the disorder is similarly unclear, and
his behavior before, during, and after the murders
suggests that he was in control of his faculties. The
weight attributable to this mitigator, if any, would
have been extremely low under the circumstances.
Consecutive Sentences
Additionally, Lewis argues that Attorney Raff
should have argued against consecutive sentences in
light of the available mitigating circumstances. Lewis
does not dispute that the aggravating circumstance of
multiple victims generally suffices to support consecutive sentences. Indeed, “when the perpetrator commits the same offense against two victims, enhanced
and consecutive sentences seem necessary to vindicate the fact that there were separate harms and
separate acts against more than one person.” Serino v.
State, 798 N.E.2d 852, 857 (Ind. 2003).
Lewis notes that consecutive sentences, however,
are not always required where there are multiple murder victims. For example, in Holsinger v. State, 750
N.E.2d 354 (Ind. 2001), the Court reversed a sentence
of two consecutive sentences of life in prison without
parole after finding several sentencing errors. The

74a
Court chose to resentence the defendant with an independent consideration of the aggravating and mitigating factors. In mitigation, the Court observed that the
defendant was nineteen when he participated in the
murders (and robberies), he had a troubled childhood,
his co-defendant was the instigator/leader of the
criminal episode, and he had no juvenile or criminal
history. Id. at 363-64. Despite finding that the
“aggravating circumstances outweighed the mitigating circumstances by a sufficient magnitude that the
maximum sentence of 65 years for murder should be
imposed on each count”, the Court ordered the sentences on the two murder counts to be served concurrently. Id. at 365; see also Brown, 10 N.E.3d at 4-8
(revising inappropriate sentence from 150 years to
80 years for two counts of murder and one count of
robbery where defendant was only 16 years old, was
an accomplice/not the mastermind, the murders were
not particularly heinous, and defendant’s only violent
juvenile offense was a battery).
Although consecutive sentences are not always a
given when there are multiple murder victims,
concurrent sentences are undoubtedly the exception.
We cannot agree with Lewis that the facts of this case
lend themselves to making concurrent sentences
appropriate. As discussed above, although Lewis was
relatively young and acted as an accomplice, his
culpability was great. Moreover, unlike in Brown,
these murders were particularly heinous. The victims
were fourteen and sixteen years old and were each
shot multiple times in senseless acts of violence. In
fact, Lewis callously provided the murder weapon to
Mays for the purpose of killing Rogers if Mays wanted

75a
to. After leaving the victims to die,6 the trio, along with
Lawson, partied into the night and laughed about
their crimes. In addition to the nature and circumstances of the murders, we find relevant Lewis’s
substantial criminal behavior in the subsequent years
and his continued association with Hale and Mays.
Prejudice
The post-conviction court determined that even if
Attorney Raff had done everything that Lewis now
wishes he had done, “there would have been little or
(more likely) no effect on the sentence.” Appendix Vol.
III at 41. The court noted that consecutive sentences
were supported by the aggravating circumstance of
multiple victims, the second of which was killed after
Lewis handed his gun to Mays. The court opined, “it is
inconceivable that Attorney Raff could have presented
any evidence or argument that would have altered the
Court’s decision” regarding consecutive sentences. Id.
The court continued:
[I]t is at least conceivable that Attorney Raff
could have obtained an aggregate sentence
of less than 130 years (but at least 110 years)
for Petitioner by presenting mitigating
evidence. In view of the weakness of the
available mitigating evidence, however, there
is no reasonable probability that Petitioner
would have received a sentence of less than
130 years. There would have been no basis for
an argument that Petitioner’s participation
as an accomplice was entitled to any mitigating weight. His age of 18 at the time of the
6

The evidence at trial indicated that one of the victims was
still alive for a period of time after being shot and he moved
around the house, leaving a trail of blood.

76a
offense would have lost all or most of the
limited significance it did possess in view of
his age of 30 at the time of sentencing. His
difficult childhood would have warranted
“little, if any, mitigating weight”, particularly
in view of the lack of evidence connecting his
bad childhood with his later decision to take
part in an armed robbery. His bipolar disorder, also not shown to have any nexus with
his crimes, would likewise have deserved
little weight, if any, as a mitigating factor.
Although the Court would have had discretion to give some modest weight to these
claimed mitigators, and accordingly to impose
an aggregate sentence slightly below the
maximum possible, there is no reasonable
probability that the Court would actually have
done so under the circumstances of Petitioner’s case. See Taylor v. State, 840 N.E.2d
324, 331 (Ind. 2006), quoting Strickland, 466
U.S. at 687 (a “reasonable probability” is a
probability “sufficient to undermine confidence in the outcome”). Petitioner’s defense
therefore did not suffer prejudice from
Attorney Raff’s failure to present mitigating
evidence and argument at sentencing.
Appendix Vol. III at 41-42 (some citations omitted).
“The dispositive question in determining whether
a defendant is prejudiced by counsel’s failure at sentencing to present mitigating evidence is what effect
the totality of the omitted mitigation evidence would
have had on the sentence.” McCarty, 802 N.E.2d at 967
(citing Coleman, 741 N.E.2d at 702). Thus, on review,
we determine whether there is a reasonable probability that the trial court would have imposed a lesser

77a
sentence had it been fully informed of the mitigating
evidence. McCarty, 802 N.E.2d at 969.
We agree with the post-conviction court that there
is not a reasonable probability that presentation of
the omitted mitigating evidence would have affected
Lewis’s sentence. While Attorney Raff certainly should
have proffered the mitigators at sentencing, the
meager weight of those simply could not withstand
the overwhelming weight of the aggravating circumstances. Without recounting everything above, we
observe that this was a senseless and horrific crime,
resulting in the death of two teenage boys, and Lewis,
an active participant at all stages, seemed to be
unfazed by his involvement in the killings. For at least
the next eight years, Lewis continued his criminal
behavior and was convicted in both Arizona and
Indiana of several felonies and misdemeanors.7
Although Lewis gave a detailed statement to detectives, he never grasped that he was culpable for the
killings and his statement at sentencing was not
reflective of true remorse. The post-conviction court’s
determination regarding lack of prejudice was not
clearly erroneous.
U.S. v. Cronic
Lewis argues that this is a rare case in which prejudice is presumed due to trial counsel’s effective
abandonment of his client during a critical stage in the
proceedings. This argument is based on U.S. v. Cronic,
466 U.S. 648 (1984).

7

Lewis reported that his role in the Gangster Disciples, of
which he was a member from age thirteen to age twenty-six, was
“selling drugs, robbing people, and beating people up.” PostConviction Exhibits at Petitioner’s Exhibit B (PSI report).

78a
In Cronic, the U.S. Supreme Court identified three
situations implicating the right to counsel that
involved circumstances “so likely to prejudice the
accused that the cost of litigating their effect in a
particular case is unjustified.” Id. at 658-659. First
and “[m]ost obvious . . . is the complete denial of
counsel” at a critical stage of trial. Id. at 659. Secondly,
the Court noted “if counsel entirely fails to subject the
prosecution’s case to meaningful adversarial testing,
then there has been a denial of Sixth Amendment
rights that makes the adversary process itself presumptively unreliable.” Id. Finally, the Court included
cases “where counsel is called upon to render assistance under circumstances where competent counsel
very likely could not”. Bell v. Cone, 535 U.S. 685, 696
(2002) (citing Cronic, 466 U.S. at 659-662).
Lewis argues that his claim fits within the second
exception identified in Cronic because counsel failed
to subject the State’s case to meaningful adversarial
testing at the sentencing hearing. We do not agree
that Lewis’s claim is controlled by Cronic rather than
Strickland.
The U.S. Supreme Court has emphasized the
narrowness of Cronic’s exceptions.
The Court has relieved defendants of the
obligation to make this affirmative showing
[of prejudice] in only a very narrow set of
cases in which the accused has effectively
been denied counsel altogether: These include
the actual or constructive denial of counsel,
state interference with counsel’s assistance,
or counsel that labors under actual conflicts
of interest.

79a
Weaver v. Massachusetts, 137 S. Ct. 1899, 1915, 198 L.
Ed. 2d 420 (2017); see also Kimmelman v. Morrison,
477 U.S. 365, 382 n.6 (1986) (noting the “few contexts”
where prejudice is presumed are “where counsel is
either totally absent or prevented from assisting the
accused during a critical stage of the proceeding” and
“where counsel is burdened by an actual conflict of
interest”).
Strickland and Cronic were issued the same day,
and Strickland also addressed the concept of presuming prejudice in certain contexts:
Actual or constructive denial of the assistance
of counsel altogether is legally presumed to
result in prejudice. So are various kinds of
state interference with counsel’s assistance.
Prejudice in these circumstances is so likely
that case-by-case inquiry into prejudice is not
worth the cost. Moreover, such circumstances
involve impairments of the Sixth Amendment
right that are easy to identify and, for that
reason and because the prosecution is directly
responsible, easy for the government to
prevent.[8]

8

Similarly, in discussing the second exception in Cronic, the
Court cited a case in which defense counsel was precluded by a
protective order from effectively cross examining a key prosecution witness. Cronic, 466 U.S. at 659 (citing Davis v. Alaska, 415
U.S. 308 (1974)). Because this was a “constitutional error of the
first magnitude”, no showing of lack of prejudice could cure it. Id.
(quoting Davis, 415 U.S. at 318). The Court observed: “Apart from
circumstances of that magnitude, however, there is generally no
basis for finding a Sixth Amendment violation unless the accused
can show how specific errors of counsel undermined the reliability
of the finding of guilt.” Id. at 659 n. 26.

80a
One type of actual ineffectiveness claim
warrants a similar, though more limited,
presumption of prejudice. [P]rejudice is
presumed when counsel is burdened by an
actual conflict of interest. Even so, the rule
is not quite the per se rule of prejudice that
exists for the Sixth Amendment claims mentioned above. Prejudice is presumed only if
the defendant demonstrates that counsel
“actively represented conflicting interests”
and that “an actual conflict of interest
adversely affected his lawyer’s performance.”
Conflict of interest claims aside, actual ineffectiveness claims alleging a deficiency in
attorney performance are subject to a general requirement that the defendant affirmatively prove prejudice. The government is not
responsible for, and hence not able to prevent,
attorney errors that will result in reversal of
a conviction or sentence.
Strickland, 466 U.S. at 692-93 (citations omitted).
Moreover, since Cronic was decided in 1984, the
U.S. Supreme Court has never applied the second
exception to relieve a convicted defendant of the need
to prove prejudice, nor has the Indiana Supreme
Court.9 In Bell, the Court simply spoke of “the
9

We acknowledge that the Seventh Circuit has applied the
second Cronic exception in cases similar to Lewis’s. See Miller v.
Martin, 481 F.3d 468, 472 (7th Cir. 2007); Patrasso v. Nelson, 121
F.3d 297, 303-05 (7th Cir. 1997). These decisions, however, are
not binding upon us. See Ind. Dep’t of Public Welfare v. Payne,
622 N.E.2d 461, 468 (Ind. 1993) (“Although U.S. Supreme Court
decisions pertaining to federal questions are binding on state
courts, lower federal court decisions may be persuasive but have
non-binding authority on state courts.”).

81a
possibility of presuming prejudice based on an
attorney’s failure to test the prosecutor’s case” where
the attorney’s failure is complete. Bell, 535 U.S. at
696-97 (emphasis supplied). Ultimately, the Court
concluded in Bell: “The aspects of counsel’s performance challenged by respondent—the failure to
adduce mitigating evidence and the waiver of closing
argument—are plainly of the same ilk as other specific
attorney errors we have held subject to Strickland’s
performance and prejudice components.” Id. at 697-98.
We are not persuaded that Lewis’s claim falls within one of the limited circumstances of extreme magnitude that justify a presumption of ineffectiveness
under Cronic.10 The post-conviction court, therefore,
correctly determined that Lewis was required to
establish prejudice under Strickland.
Appellate Counsel’s Effectiveness
Briefly, Lewis also argues that his appellate counsel, Attorney Campbell, was ineffective for failing to
challenge his sentence as inappropriate on direct
appeal. Deficient performance will be found where the
unraised issue on appeal was “significant and obvious
from the face of the record” and was “clearly stronger”
10

We note that Attorney Raff’s lack of advocacy at the sentencing hearing appears to have been, at least in part, invited by
Lewis, who expressed clear disdain for counsel. Lewis, a difficult,
angry client, indicated at the sentencing hearing, “I really don’t
want to discuss nothin’ with Jeffrey Raff any further.” Sentencing
Transcript at 5. In preparing for the sentencing hearing, Attorney
Raff determined (incorrectly) that there were no mitigating
circumstances that he could present to the trial court. He believed
“the only hope [for Lewis] was to make an expression of remorse”.
Post-Conviction Transcript at 15. In this vein, Lewis gave a
lengthy statement at sentencing. The statement, however, veered
off from any true expression of remorse.

82a
than the issue raised. Timberlake v. State, 753 N.E.2d
591, 606 (Ind. 2001). A reviewing court, however,
“should not find deficient performance when counsel’s
choice of some issues over others was reasonable in
light of the facts of the case and the precedent available to counsel when that choice was made.” Bieghler v.
State, 690 N.E.2d 188, 194 (Ind. 1997). If deficient
performance is established, we then examine whether
the issue that appellate counsel failed to raise would
have been clearly more likely to result in reversal or
an order for a new trial. Id.
Attorney Campbell acknowledged that the sufficiency argument presented on direct appeal was not a
strong issue and that a challenge to the sentence
would have been a stronger issue if the record had
been properly developed at the sentencing hearing.
Attorney Campbell, however, felt that his hands were
tied by Attorney Raff’s failure to proffer any mitigating
circumstances below. Had Attorney Raff made a
proper record, Attorney Campbell averred that he
would have challenged the 130-year sentence as inappropriate. Additionally, Attorney Campbell believed
that challenging the sentence on direct appeal with an
undeveloped record might hinder Lewis’s ability to
pursue a post-conviction claim of ineffective assistance
of trial counsel. Attorney Campbell’s assessment of the
sentencing issue and determination not to raise it on
direct appeal were reasonable and did not constitute
deficient performance.
Judgment affirmed.
Riley, J. and Bradford, J., concur.

83a
APPENDIX E
Pursuant to Ind.Appellate Rule 65(D), this Memorandum Decision shall not be regarded as precedent or
cited before any court except for the purpose of establishing the defense of res judicata, collateral estoppel,
or the law of the case.
IN THE COURT OF APPEALS OF INDIANA
————
No. 02A03-1201-CR-18
————
RODERICK VANDRELL LEWIS,
Appellant-Defendant,
vs.
STATE OF INDIANA,
Appellee-Plaintiff.
————
August 31, 2012
————
Appeal from the Allen Superior Court
Cause No. 02D06-1102-MR-2
The Honorable FRANCES C. GULL, Judge
————
ATTORNEY FOR APPELLANT:
Stanley L. Campbell Fort Wayne, Indiana
ATTORNEYS FOR APPELLEE:
Gregory F. Zoeller Attorney General of Indiana
Andrew R. Falk Deputy Attorney General
Indianapolis, Indiana

84a
MEMORANDUM DECISION –
NOT FOR PUBLICATION
BROWN, Judge
Roderick Vandrell Lewis appeals his convictions for
two counts of felony murder.1 Lewis raises one issue,
which we restate as whether the evidence is sufficient
to sustain his convictions. We affirm.
The facts most favorable to Lewis’s convictions
follow. On June 29, 1999, Christopher Hale had a
conversation with sixteen year old Richard Rogers in
the presence of Angela Lawson during which Rogers
asked Hale to visit a drug house in Fort Wayne, Allen
County, Indiana, operated by Rogers and fourteen
year old Sidney Wilson. Hale declined because he and
Wilson were having problems, and Rogers stated that
he “would talk to [Wilson] to squash it.” Transcript at
83. Sometime later in the evening, Hale, Lewis, and
Kajuanta Mays asked Lawson to visit the drug house
and inform them who was inside, and Hale gave
Lawson twenty dollars. Lawson went to the house,
bought a rock of crack cocaine, returned to the men,
and informed them that Rogers and Wilson were the
only persons in the house. Hale, Lewis, and Mays
decided to visit the house and obtain drugs. Lewis
knew of the men’s intentions to take the drugs they
wanted and that he “was going to get something out
of it.” Id. at 361. Lewis, Hale, and Mays planned for
Hale to arrive at the house first and for Lewis and
Mays to arrive later so that it would appear to be
happenstance that all three men were at the house at
1

Ind. Code § 35-42-1-1 (Supp. 1997) (subsequently amended
by Pub. L. No. 17-2001. § 15 (eff. Jul. 1. 2001): Pub. L. No. 1512006. § 16 (eff. Jul. 1. 2006): Pub. L. No. 173-2006. § 51 (eff. Jul.
1. 1006): Pub. L. No. 1-2007. § 230 (eff. Mar. 30. 2007)).

85a
the same time so that Wilson and Rogers would not
believe that the men meant to harm them.
At some point, the three men entered the house
and started smoking and drinking with Wilson and
Rogers. Lewis was armed with a .38 special revolver,
and Hale, who Lewis described as a violent person
who had had a lot of problems with people, was armed
with a nine millimeter firearm. Hale stated that he
had to use the restroom and went upstairs, and Wilson
and Rogers sat downstairs. While Wilson was sitting
on a couch, Hale walked down the stairs and stated
“die bitch” while shooting his nine millimeter at Wilson.
Id. at 97. Hale shot Wilson five times, including in his
chest, abdomen, left armpit, left leg, and the middle
of his back. Rogers and Lewis both “started going for”
a shotgun that was in the room, and Hale turned out
the lights in the room and told Rogers to “sit down
mother f----r.” Id. at 304, 354. Hale told Lewis to kill
Rogers, and Lewis stated that he would not do it,
handed his .38 revolver to Mays, and stated “if you
want it . . . you do it.” Id. at 304. Mays then shot Rogers
five or six times, including several times in the head
from a distance of six to eighteen inches.
Lawson, who was returning to the house to purchase
additional drugs, observed Lewis, Hale, and Mays
running away from the house. Lewis took the shotgun
from the house with him. Lewis, Hale, Mays, and
Lawson entered another house, went into the basement, and Lewis, Hale and Mays split up the money
and drugs they had taken from the drug house. The
men gave Lawson some drugs to pay a person for a
ride to a hotel. Lawson arranged for a ride, and the
driver was given approximately seven rocks of crack,
which the driver recognized to be from the house of
Wilson and Rogers. Lewis, Hale, Mays, and Lawson

86a
entered a hotel room, and the men “were sittin around
laughin’ and talkin” and discussing and describing
the shootings. Id. at 97. At some point that night,
Lawson and Lewis had sex or oral sex. At some point,
Lewis’s uncle buried the .38 revolver and it was later
exhumed. Lewis went to Arizona and returned to
Indiana, and in March 2001 police stopped Lewis,
Hale, and Mays and discovered the revolver in their
vehicle.
On February 25, 2011, the State charged Lewis
with Count I, felony murder for the death of Rogers;
Count II, felony murder for the death of Wilson; Count
III, robbery of Rogers as a class A felony; and Count
IV, robbery of Wilson as a class A felony. A jury found
Lewis guilty on all counts. The court sentenced Lewis
to sixty-five years each for his convictions under
Counts I and IL merged Count III into Count I and
Count IV into Count II, and ordered the sentences
under Counts I and II to be served consecutive to each
other for an aggregate sentence of 130 years.
The issue is whether the evidence is sufficient to
sustain Lewis’s convictions. When reviewing the claim
of sufficiency of the evidence, we do not reweigh the
evidence or judge the credibility of the witnesses.
Jones v. State, 783 N.E.2d 1132, 1139 (Ind. 2003). We
look only to the probative evidence supporting the
verdict and the reasonable inferences therein to determine whether a reasonable trier of fact could conclude
the defendant was guilty beyond a reasonable doubt
Id. If there is substantial evidence of probative value
to support the conviction, it will not be set aside. Id.
Lewis maintains that the evidence was insufficient
to support his felony murder convictions and the
underlying robbery. Lewis acknowledges that he had
some notion that Hale and Mays intended to rob

87a
Rogers and Wilson of their drugs and money but
contends that the evidence was insufficient for a jury
to have determined from his actions or words that he
possessed the intent to assist Hale and Mays in a
robbery, that he aided, induced, or caused Hale or
Mays to shoot and kill Rogers and Wilson, or that the
deaths of Rogers and Wilson were a natural and
probable consequence of any robbery attempt. The
State argues that Lewis’s conduct before the crimes
took place, his active involvement in the crimes, his
refusal to stop his companions from committing the
offenses, and his conduct after the robbery and murders all permitted the jury to conclude that Lewis was
an accomplice in the crimes and that the jury could
reasonably have concluded that violence and murder
would be the natural and probable consequence of
a robbery based upon the fact that Lewis and his
companions were armed and that there was bad blood
between Wilson and Hale.
Ind. Code § 35-42-1-1 provides that a person who
“kills another human being while committing or
attempting to commit . . robbery . . . commits murder,
a felony.” Ind. Code § 35-42-5-1 provides that “[a]
person who knowingly or intentionally takes property
from another person or from the presence of another
person . . . by using or threatening the use of force on
any person . . . or . . . by putting any person in fear . . .
commits robbery, a Class C felony.” “However, the
offense is a Class B felony if it is committed while
armed with a deadly weapon or results in bodily injury
to any person other than a defendant, and a Class A
felony if it results in serious bodily injury to any
person other than a defendant.” Ind. Code § 35-42-5-1.
The Indiana Supreme Court has held that [a]ll
participants in a robbery or attempted robbery which

88a
results in killing by one robber are deemed equally
guilty of murder, regardless of which participant
actually killed the victim.” Williams v. State, 706
N.E.2d 149, 157 (Ind. 1999), reh’g denied, cert. denied,
529 U.S. 1113, 120 S. Ct. 1970 (2000). In Indiana there
is no distinction between the responsibility of a principal and an accomplice. Wise v. State, 719 N.E.2d
1192, 1198 (Ind. 1999). A person who knowingly or
intentionally aids, induces, or causes another person
to commit an offense commits that offense, even if the
other person has not been prosecuted for the offense.
Ind. Code § 35-41-2-4. The factors that are generally
considered to determine whether one person has aided
another in the commission of a crime include: (1) presence at the scene of the crime; (2) companionship with
another engaged in a crime; (3) failure to oppose the
commission of the crime; and (4) the course of conduct
before, during, and after the occurrence of the crime.
Wieland v. State, 736 N.E.2d 1198, 1202 (Ind. 2000).
A person’s intent “may be determined from their
conduct and the natural consequences thereof’ and
“intent may be inferred from circumstantial evidence.” Coleman v. State, 546 N.E.2d 827, 831 (Ind.
1989), reh’g denied. It is within the province of the
jury to draw an inference of knowledge or intent
from the facts presented. Whatley v. State, 908 N.E.2d
276, 284 (Ind. Ct. App. 2009) (citing Gibson v. State,
515 N.E.2d 492, 496 (Ind. 1987)), trans. denied. See
also Hampton v. State, 961 N.E.2d 480, 487 (Ind. 2012)
(“[T]he mens rea element for a criminal offense is
almost inevitably, absent a defendant’s confession or
admission, a matter of circumstantial proof”); Kondrup
v. State, 250 Ind. 320, 323-324, 235 N.E.2d 703, 705
(1968) (“[T]he intent to commit a felony may be
inferred from the circumstances which legitimately
permit it.”).

89a
The evidence reveals that Hale, Mays, and Lewis
planned to visit the drug house, that Lewis was aware
of the plan to rob Wilson and Rogers, that Lewis knew
that he was going to get something out of it, that
Lawson was sent to the house to determine who was
present there, that Lewis helped to plan the men’s
staggered arrival at the house so that Wilson and
Rogers would not realize the men intended any harm,
that Lewis took his .38 revolver with him to the house,
that Lewis knew that Hale took his nine millimeter to
the house, that Lewis reached for the shotgun after
Wilson had been shot to prevent Rogers from reaching
it, that Lewis handed Mays his .38 revolver to shoot
Rogers, that Lewis took the shotgun from the house,
that Lewis later split the drugs and money taken from
the house with Hale and Mays, and that Lewis had his
uncle bury the .38 revolver. The jury heard testimony
that Lewis knew that Hale had had previous altercations with Wilson and Lewis’s testimony that drug
dealing was le]xtremely dangerous” and that, if someone were to attempt to take drugs from a drug dealer,
shootings and killings could happen and happened all
the time. See Transcript at 365.
To the extent that Lewis points to his own testimony
that he intended only to visit the drug house to smoke
dope and have a good time and not to commit a
robbery, we note that we do not judge the credibility of
the witnesses and look only to the probative evidence
supporting the verdict and the reasonable inferences
therein. See Jones, 783 N.E.2d at 1139. Based upon
the evidence presented at trial, the jury could have
reasonably inferred from the evidence presented that
Lewis possessed the requisite intent to participate in
the robberies, that he was an accomplice to the robberies and murders, and that the killings of Rogers
and Wilson were probable and natural consequences

90a
of the actions of Lewis, Hale, and Mays. Based upon
our review of the record, we conclude that evidence of
probative value exists from which the jury could have
found that Lewis committed the charged offenses
beyond a reasonable doubt.
For the foregoing reasons, we affirm Lewis’s
convictions.
Affirmed.
FRIEDLANDER, J., and PYLE, J., concur.

